<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2000 OFFICE OF JUSTICE PROGRAMS BUDGET: UNDERCUTTING STATE AND LOCAL LAW ENFORCEMENT IN THE 21ST CENTURY</title>
<body><pre>[Senate Hearing 106-404]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-404

  THE PRESIDENT'S FISCAL YEAR 2000 OFFICE OF JUSTICE PROGRAMS BUDGET: 
    UNDERCUTTING STATE AND LOCAL LAW ENFORCEMENT IN THE 21ST CENTURY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON YOUTH VIOLENCE

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

  THE PRESIDENT'S FISCAL YEAR 2000 OFFICE OF JUSTICE PROGRAMS BUDGET: 
    UNDERCUTTING STATE AND LOCAL LAW ENFORCEMENT IN THE 21ST CENTURY

                               __________

                             MARCH 25, 1999

                               __________

                          Serial No. J-106-11

                               __________

         Printed for the use of the Committee on the Judiciary





                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                     Subcommittee on Youth Violence

                    JEFF SESSIONS, Alabama, Chairman

BOB SMITH, New Hampshire             JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              HERBERT KOHL, Wisconsin

                       Kristi Lee, Chief Counsel

                 Sheryl Walter, Minority Chief Counsel

                                  (ii)
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     1
Kohl, Hon. Herbert, U.S. Senator from the State of Wisconsin.....     4

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Laurie Robinson, assistant attorney general, Office 
  of Justice Programs, U.S. Department of Justice................     5
Panel consisting of Colonel John H. Wilson, chief of police, 
  Montgomery, AL; Hon. Chet W. Vahle, juvenile court judge, 
  Quincy, IL, on behalf of The National Council of Juvenile and 
  Family Court Judges; Hon. Patricia L. West, juvenile and 
  domestic relations district court, Virginia Beach, VA; and 
  Harry L. Shorstein, state attorney, Fourth Judicial Circuit of 
  Florida, Jacksonville, FL......................................    19

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Robinson, Laurie:
    Testimony....................................................     5
    Prepared statement...........................................    12
Shorstein, Harry L.:
    Testimony....................................................    34
    Prepared statement...........................................    41
        Article from the New York Times: ``System in Florida 
          Intervenes To Ward Off Juvenile Crime'', dated Oct. 4, 
          1997...................................................    37
Vahle, Chet W.:
    Testimony....................................................    21
    Prepared statement...........................................    23
West, Patricia L.:
    Testimony....................................................    28
    Prepared statement...........................................    31
Wilson, Col. John H.:
    Testimony....................................................    19
    Prepared statement...........................................    20

 
  THE PRESIDENT'S FISCAL YEAR 2000 OFFICE OF JUSTICE PROGRAMS BUDGET: 
    UNDERCUTTING STATE AND LOCAL LAW ENFORCEMENT IN THE 21ST CENTURY

                              ----------                              


                        THURSDAY, MARCH 25, 1999

                               U.S. Senate,
                    Subcommittee on Youth Violence,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff Sessions 
(chairman of the subcommittee) presiding.
    Also present: Senator Kohl.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. Good afternoon. Thank you very much for 
being here. I would like to begin today by welcoming our panel 
of witnesses. They are very distinguished. Some of you have 
traveled great distances to be here, and I appreciate your 
efforts and willingness to share your thoughts on the subjects 
we will be discussing.
    I have called this hearing to examine President Clinton's 
decision to eliminate over $1.4 billion in fiscal year 2000 
funding from several important programs which assist State and 
local law enforcement efforts. The subcommittee has an 
important oversight function with respect to programs 
administered by the Office of Justice Programs. Because of the 
importance of this oversight, I want to take this opportunity 
to examine why the President has proposed a budget which 
eliminates funding for three specific law enforcement programs 
administered by OJP: the juvenile justice accountability 
incentive block grant program, the local law enforcement block 
grant program, and the truth-in-sentencing/violent offender 
incarceration program. Additionally, I would also like to use 
this opportunity to discuss a proposal to reorganize OJP that 
the office has developed.
    Before proceeding further, let me briefly discuss the 
programs that will be the subject of today's hearings. As a 
lead sponsor with Senator Hatch on the Hatch-Sessions Violent 
and Repeat Juvenile Offender Accountability and Rehabilitation 
Act, I have worked with Senator Hatch to include a 5-year 
authorization of the juvenile justice accountability incentive 
block grant program in this legislation. In fact, the version 
of this bill we have introduced in the 106th Congress, S. 254, 
contains an annual authorization of $450 million each year for 
the next 5 years for the program. The money that is distributed 
under this program can be used by States and local communities 
as they see fit for a variety of law enforcement purposes, 
including the building or expanding of juvenile detention 
facilities, which are oftentimes far more than just a jail. 
They have school programs in them, mental health treatment 
programs, and work training programs, all a part of those 
juvenile detention facilities.
    The juvenile accountability block grant program will allow 
for the development of accountability-based sanctions for 
juveniles and the establishment of juvenile drug courts and a 
number of other programs that help take young people who have 
run afoul of the law into a new life of law-abidingness. So I 
am looking forward to the testimony of one of today's 
witnesses, Judge West, about the link between this block grant 
program and the development of graduated sanctions programs.
    Why do Senator Hatch and I care so much about the program? 
Because it is the only Federal program that dedicates money to 
States for juvenile justice purposes. In 1997, I commissioned a 
GAO study to examine how the Federal Government addresses the 
issue of juvenile crime and the question of prevention, because 
some say you should not spend any money on juvenile justice 
programs until you have spent even more money on prevention. 
And I really do not see them to be in conflict. But the GAO 
concluded that the Government administered 129 juvenile 
programs focusing on prevention at an annual cost of $4.3 
billion, while spending no money at all on the juvenile law 
enforcement programs.
    Since that report, I have worked to change this. Over the 
last 2 years, Senator Hatch and I were able to work withthe 
appropriators to ensure that $250 million was made available in 1998 
and 1999 to support State and local juvenile law enforcement efforts, 
which include the combination of probation, court systems and follow-
up, and education programs and drug treatment and testing as a part of 
that.
    In fact, my home State of Alabama received $3.7 million in 
fiscal year 1998 and will receive another $3.7 million under 
this program for fiscal year 1999. Surely you can imagine my 
disappointment when I realized that the President's budget 
eliminated this program entirely without any communications or 
hearings or analysis that I am aware of.
    The second program I wish to speak about is the law 
enforcement block grant program. This program is one of the 
most important crime-fighting provisions adopted a number of 
years ago. It represents a serious partnership between the 
Federal Government and local law enforcement. How serious a 
partnership? Over the last 2 fiscal years, more than $1 billion 
in funding has gone to help local law enforcement improve their 
ability to fight crime.
    I would like to read a passage from a letter I received 
from an Alabama mayor of a smaller town. The mayor writes:

    The local law enforcement block grant we received has 
enabled our city to increase the size of its police fleet by 
five cars and to relegate five older cars, most of which do not 
have safety features, such as antilock brakes and airbags, to 
administrative and investigative purposes rather than emergency 
response and patrol purposes. This grant also has allowed our 
police department to standardize its handguns and to issue 
safety holsters to our officers, making for a safer working 
environment for both the police and the public.

    He added,

    We appreciate your continued support for these programs. 
Without them the quality and quantity of police service in our 
community would certainly suffer.

    As you can see, this administration decision to eliminate 
this vital program, which provides actual funding to local 
communities for their use, is damaging. Those funds can be used 
for the purposes of hiring additional officers, the payment of 
overtime, the acquisition of new technology, and the enhancing 
of security around schools. The loss of it will be a big 
setback to local law enforcement.
    Larger cities also find merit in the local law enforcement 
block grant, and I am pleased to see Colonel John Wilson, chief 
of the Montgomery, AL, Police Department here today. Montgomery 
is Alabama's capital city and also has the distinction of 
having received more local law enforcement block grant money 
under this program last year than any city in the State. So I 
look forward to hearing Chief Wilson, whom I have admired for a 
number of years, to discuss how his program and that of his 
mayor, Emory Folmar, work to strengthen the outstanding police 
force that they have in the city.
    The third item for discussion today is the President's 
decision to eliminate over $600 million in the truth-in-
sentencing/violent offenders' incarceration grant program. 
These programs serve two important law enforcement goals. They 
encourage States to implement truth-in-sentencing laws that 
require people convicted of violent crimes to serve no less 
than 85 percent of the sentence imposed and to assure the 
availability of funds to allow for building or expansion of 
juvenile correction facilities and jails. This program helps to 
ensure that those who are found guilty of violent crimes, such 
as murder, rape, robbery, and assault, will remain locked up 
and off the street. And I would hope that we can encourage the 
President to rethink his opposition to this program that helps 
ensure that violent predators remain safely behind bars.
    I also look forward to the testimony of Judge Vahle, who 
will comment on his State's use of the money made available 
under this program to improve juvenile correctional facilities.
    Clearly, I believe that the administration's decision to 
eliminate funding for this program is in error. The budget as 
submitted will result in an undercutting of the ability of 
State and local law enforcement entities to combat crime in 
their communities. The President's budget request will also 
make it more difficult for State prison systems to keep 
murderers, robbers, and sexual predators imprisoned. I also 
question many of the projects the President has chosen to fund 
with an additional request of his.
    Finally, I am interested in hearing Director Robinson's 
comments on the specific programs that are being proposed and 
also on the Office of Justice Programs' proposal for 
restructuring of the office. I believe we should look favorably 
upon efforts that seek to reduce the size and ineffectiveness 
of Government and that will improve efficiency in Government. 
Sometimes this requires consolidation and simplification of 
duplicative programs. The Director's comments on the proposed 
restructuring plan of this office could be very helpful as we 
seek to be more effective in looking at the OJP office.
    I am also honored to have with us Senator Kohl, who is the 
ranking member, and I would appreciate any comments you would 
have, Herb, at this time.

 STATEMENT OF HON. HERBERT KOHL, A U.S. SENATOR FROM THE STATE 
                          OF WISCONSIN

    Senator Kohl. Thank you very much, Mr. Chairman.
    I won't take up too much time today discussing what isin 
the administration's budget and what is not. Every year the 
administration uses its budget to signal its priorities, and then 
Congress does its job. In the end, we all know the Local Law 
Enforcement Block Grant and the Juvenile Accountability Block Grant 
will get funded. And they should because these programs provide real 
assistance to real people on the front lines fighting crime, and they 
put spending decisions into the hands of State and local officials who 
know best, not Washington insiders.
    But block grants are supposed to offer flexibility, and 
that should include the flexibility to choose a balanced 
strategy to reduce juvenile crime with both aggressive 
enforcement to keep the dangerous criminals off the streets and 
also prevention to stop crime before it happens. These block 
grants are good as far as they go, but they do not provide the 
balance. In fact, they deliberately short-change prevention. 
The Juvenile Accountability Block Grant, for example, provides 
hundreds of millions of dollars to juvenile justice assistance, 
but not one single dollar can be used for prevention. That is 
right, not even a dollar. This is not only wrong, in my 
opinion, it is unacceptable.
    And very little of the Local Law Enforcement Block Grant 
goes to prevention even though it is supposed to be available 
for this purpose. Why? Because year after year a slim majority 
of appropriators single out most of the prevention language and 
say, ``You cannot use this money for these purposes.''
    And so my question is this: If local officials know best, 
then why can't they invest this funding in crime prevention? If 
prevention works in their communities, why should they be told 
no just because some people in Washington don't like it? Mr. 
Chairman, I support these programs, but I hope we can work 
together to support a more balanced approach.
    And so today I am introducing the 21st Century Safe and 
Sound Communities Act. This comprehensive measure to fight 
juvenile crime builds on what is already working in cities 
across the country: a combination of putting dangerous 
criminals behind bars, keeping guns out of the hands of young 
people, and creating after-school alternatives to guns and 
drugs. In my own city of Milwaukee, similar efforts in three 
targeted neighborhoods led to dramatic reductions in violent 
crimes and gun crimes, and ``Safe and Sound'' is the name of 
the program that we have established to expand this success 
citywide. This bill will help make other communities across our 
Nation safer and sounder as well.
    Our measure helps stop violent juveniles by hiring 50,000 
new police officers, building new juvenile jails, and cracking 
down on gun-toting kids and the people who illegally supply 
them with weapons. It helps keep guns out of the wrong hands by 
requiring the sale of child safety locks with every handgun, by 
expanding Richmond's Project Exile to aggressively enforce 
Federal firearms laws, and by closing the inexcusable loophole 
that allows violent young offenders to buy guns once they turn 
18. And it promotes crime prevention by opening the juvenile 
accountability block grant to prevention, cutting redundant and 
wasteful prevention programs, expanding the successful ones, 
and subjecting even the good ones to rigorous evaluations.
    In short, Mr. Chairman, I believe this bill strikes a 
responsible balance, and on an issue as important as juvenile 
crime, I am hopeful it is a balance we can all support.
    I thank you.
    Senator Sessions. Thank you, Senator Kohl, and I look 
forward to working with you and reviewing that proposal. I 
certainly respect your commitment to this issue.
    I do think that one thing we will discuss as we go forward 
is how a juvenile justice system, properly organized and 
coordinated with all the efforts in the community, can in 
itself be a crime prevention technique, maybe the best because 
it identifies those kids most at risk, the ones that are 
already getting arrested, and maybe can turn them around.
    Our first panelist I would like to call at this time is Ms. 
Laurie Robinson, who was appointed by the President as 
Assistant Attorney General in September of 1994. She heads the 
Justice Department's Office of Justice Programs, which includes 
the National Institute of Justice, the Bureau of Justice 
Assistance, the Bureau of Justice Statistics, the Office for 
Victims of crime, and the Office of Juvenile Justice and 
Delinquency Prevention. Prior to joining the Department, Ms. 
Robinson served as director of the American Bar Association's 
Criminal Justice Section.
    So, Ms. Robinson, I want to welcome you to this hearing and 
say to you that I have admired the work you are doing, and I 
have enjoyed working with you. And at this time, I would like 
to hear your statement.

   STATEMENT OF LAURIE ROBINSON, ASSISTANT ATTORNEY GENERAL, 
     OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Ms. Robinson. Mr. Chairman and members of the subcommittee, 
thank you so much for inviting me here today to talk about the 
work that OJP is doing to help ensure that States and local 
communities, in fact, have the funding and the other help that 
they need to combat crime and to address public safety. And I 
do want to express my appreciation to you, Mr. Chairman, for 
your support of OJP, and particularly our work on 
counterterrorism and the work that we are doing together at 
Fort McClellan. And I look forward to also continuing to work 
closely with you as we move OJP toward a new, more integrated 
organizational structure that can enhance our ability to help 
States and localities address public safety.
    As you know, at the request of Congress, we have developed 
a plan for a new organizational structure for OJP, one that 
would consolidate and streamline the agency and also enhance 
our grant-making and our information-sharing functions. And I 
look forward very much to working with you and others in 
Congress to implement what I see as very much needed management 
changes.
    In the interim, however, we are continuing to move 
aggressively ahead to carry out our mission of assistance to 
States and localities. As you know, crime rates are down this 
year for the sixth year in a row. The programs that are 
proposed in the budget are designed to build on this momentum. 
And I must say that back to the earliest days of our program in 
LEAA, it is clear to me that we do need a mix of discretionary 
funding, technical assistance, research, training, and block 
grant funds. It is also clear, however, that some difficult 
choices had to be made by the administration within the 
spending levels available.
    What I would like to do today briefly, Mr. Chairman, is 
highlight six critical areas, among others, where the budget 
proposes to target funds in the next fiscal year to build on 
efforts that I think are making our communities safer.
    First, enhancing law enforcement technology. Law 
enforcement professionals tell us today that they need a solid 
technological infrastructure to fight crime effectively. They 
need computer hardware and software for crime mapping, and they 
need resources to help reduce the backlog of DNA samples in our 
Nation's crime labs. They need interoperable wireless 
communications, and they need sophisticated technology to 
improve their forensic science capabilities. The Justice 
Department I think can play a vital role by providing seed 
money for pilot projects, demonstration programs, and, 
importantly, advances in our knowledge.
    Second, OJP will continue its focus on addressing crime and 
drug abuse by juveniles. I know this is a subject of deep 
concern to you, Mr. Chairman, as well as to those of you on the 
committee and in the Department.
    Despite statistics showing decreases in juvenile arrest 
rates, we all know that youth crime remains a continuing 
concern. So among other requests, we are asking for $20 million 
for fiscal year 2000, a $10 million increase, for the drug 
prevention demonstration program which Congressman Rogers 
initiated 2 years ago, and we are also seeking funding for a 
new youth gun violence initiative, recognizing that the impact 
of such violence on young people remains tragically high.
    I was very shocked recently as the mother myself of a 15-
year-old boy to read that a teenager today is more likely to 
die of a gunshot wound than of any disease. So we are proposing 
an initiative that builds on a pilot effort now under way in 
four cities to aggressively address juveniles' illegal access 
to guns. And beyond that as well, we are requesting funding in 
a number of areas to ensure effective law enforcement 
prosecution and prevention in dealing with juvenile offenders.
    A third area of focus is strengthening prosecution. The 
budget's request for $200 million for hiring community 
prosecutors builds on the success of community policing 
byemphasizing prosecutor partnerships with the community to solve 
crime-related problems.
    Under community prosecution--and I must say I have had the 
chance to see successful results from that around the country--
we are seeing prosecutors shift their emphasis from solely 
processing cases to actually identifying local crime problems 
and then working in concert with the community, with law 
enforcement, and with other parts of the system to identify and 
find solutions to local crime problems.
    This proposal can help provide needed funds to adjudicate 
offenders and ensure convictions, as well as meeting a need not 
addressed by the 1994 Crime Act to address prosecution needs.
    A fourth important focus is ensuring offender 
accountability. Research has shown over and over the link 
between drug use and crime, and we know from that research that 
drug testing, coerced treatment, and sanctions when we have 
offenders in the system works. We also know that transitional 
programs for the post-release supervision period are essential 
to making these changes stick. So we propose to continue and 
expand the drug court program, which has had a number of 
successes in Alabama, Mr. Chairman, as you know, as well as 
many other States, and we also propose a new drug-testing 
intervention and sanctions initiative to help local communities 
take drug-involved offenders and hold them responsible for 
changing their behavior, getting off drugs, and staying away 
from offending.
    The fifth area I want to mention is enhancing community-
based public safety efforts, and I view OJP's role here as one 
of providing hands-on technical assistance, funding, and 
knowledge to help communities identify their crime problems, 
develop a strategy to address those specific needs, and then 
implement efforts to put those plans into action.
    We have seen how successful that approach can be through 
the weed-and-seed program, which, as you know, was developed by 
the last administration and is now under way in about 200 
communities around the country.
    The final area I want to highlight today is 
counterterrorism/domestic preparedness, and I want to thank 
you, Mr. Chairman, the members of this committee, and the 
Congress for your support for this critical area. OJP is proud 
to be a part of the Justice Department's team in addressing 
this issue. And while this may be a new mission for OJP, 
working in close partnership with State and local jurisdictions 
is not. We are now putting that experience to work to address 
the problem of State and local domestic preparedness, and from 
what I have seen from my visits to Fort McClellan and the other 
counterterrorism training centers, there is a great need there 
to be met.
    In conclusion, Mr. Chairman, I look forward to working with 
you to help ensure our common goal of public safety in 
America's communities, and I would now be happy to answer your 
questions.
    Senator Sessions. Thank you, Ms. Robinson. I appreciate 
those comments, and I know you have worked hard to make OJP the 
kind of effective program it can be.
    I would just like to ask a few questions and get our 
thinking straight. I think Senator Kohl is correct that our 
budgets, particularly as we have seen from the administration 
over the years, have not been as serious as they ought to be, 
and it has gotten to the point where we just say they are 
blueprints or guidelines or something. But real programs are 
involved, programs I care about, Senator Hatch cares about, 
local law enforcement cares about. And when they have a zero by 
them, it makes you nervous because you believe that they are, 
in fact, working.
    Let me mention a couple of things. The way we look at the 
budget as it is written now, would you disagree that the prison 
grant truth-in-sentencing program has been cut back under the 
President's budget to $75 million, and the local law 
enforcement block grant has been zeroed and juvenile 
accountability incentive block grant has been zeroed out? Is 
that the way you understand the budget? We are not incorrect 
about that, are we?
    Ms. Robinson. $75 million.
    Senator Sessions. $75 million, yes. That is correct. And so 
I think that is one of the things that I am concerned about.
    You are talking about the efforts of enlisting the 
community through prosecutors, through other programs, to come 
together to develop a strategy to fight crime. With regard to 
the juvenile crime program, I believe that the juvenile grant 
program that we have has great flexibility and, in fact, 
encourages local communities to come together. It requires 
before any grant can be approved that the sheriff and the judge 
and the probation officers and other leaders in the community 
sign off on the program and are participants.
    Don't you think that is one way that would help bring the 
community together, that that grant program does, in fact, do 
that?
    Ms. Robinson. Mr. Chairman, OJP and specifically our 
Juvenile Justice Officer are very proud of the way we have 
moved that program ahead. Within 2 months of our having the 
delegation to run it last fiscal year, we had already gotten 
the outreach to the field completed, developed guidance, and 
had the applications out to the States and moved money out very 
quickly. And as you describe it, that is correct, of course, 
that it really contemplates that outreach at the local 
community level.
    What the President's budget attempts to do is to address on 
a broader plane a number of these issues, addressing them, for 
example, through the $200 million community prosecution 
project, through additional community policing support, and 
other efforts. But I certainly agree with you that that kind of 
community-based outreach and bringing all the players to the 
table is essential. That is what I see when I go out on the 
road, when I see the weed-and-seed sites, another example from 
your own experience as U.S. Attorney in southern Alabama, for 
example, that that is the effective approach to really 
addressing a problem, analyzing it, and then developing 
solutions.
    Senator Sessions. That is what our goal is, and I think, as 
we were discussing previously with some of our panelists, that 
when you get right down to it, what those of us who have been 
involved in crime fighting for a long time believe is that when 
we talk about it honestly, we tend to agree exactly on how to 
do it.
    My concept has been--and I believe the juvenile block grant 
program, which is the smallest of the three block grant 
programs--does is encourages that juvenile justice system, 
including the judge and his prosecutors and probation officers, 
where most of the effort is done, encourages them to develop a 
comprehensive community plan, usually bringing in mental health 
people, drug treatment people, and those prosecutors and police 
to develop a comprehensive--from arrest to final end of 
probation or parole--system that actually can change the lives 
of young people. But I have some doubts about $20 million, I 
believe, for prosecutors, you know--how much did you say?
    Ms. Robinson. $200 million.
    Senator Sessions. $200 million, well, that is one part of 
the juvenile system, prosecutors is, and a key part. I was one 
for nearly 17 years. So that is a key part of it, but to me, to 
just focus the biggest part of your money on one aspect of it 
probably is not the best way to do that. I will be talking with 
you some more about it, but I tend to believe our comprehensive 
effort of having the whole system involved is a better 
approach.
    Let me ask you, you mentioned drug courts and drug testing. 
Does the administration's plan contemplate the drug testing of 
all arrestees for crime in the juvenile court system?
    Ms. Robinson. The President's budget includes $215 million 
for offender accountability programs, which embrace, yes, drug 
testing. We see that as a very critical piece of offender 
accountability on the adult side as well as the juvenile side. 
So the components of that $215 million piece are $50 million in 
the request for drug courts, $65 million for the in-prison drug 
treatment, and we have seen a number of jurisdictions of 
States, because this is block grant money, use that funding for 
juveniles as well.
    Then the final piece, the $100 million piece, is the one I 
mentioned in my opening statement that would contemplate 
locally based programs for offenders who are on pretrial 
release, probation, parole, or in local jails or local 
facilities for juveniles that can institute a program of drug-
testing intervention and sanctions for failure to stay drug-
free. We think that is an important component of the plan.
    Senator Sessions. Well, I guess to me the missing link in 
all of this--and I am not sure whether I have had the support 
of the Department. I think not. But it strikes me that the way 
to find out whether a child who has been arrested has a drug 
problem is to test them when they are arrested, and it could be 
that they are arrested for shoplifting or for small petty theft 
or minor burglary. And it may be that that burglary and 
shoplifting was driven by a drug habit. And if you care about 
those children, if you really want to help a child that has 
been arrested, one of the most important things to know is 
whether or not they are using drugs. Their parents may not even 
know it. And the sooner you find that out, the better chance 
there is to reverse that bad habit and keep them.
    Does your plan require that arrestees be tested?
    Ms. Robinson. For the money I mentioned, yes, it does. But 
I should also clarify----
    Senator Sessions. Does it require it or does it just make 
it available for it if they choose to do so?
    Ms. Robinson. No. If they accept that funding, they would 
have to be doing that.
    Senator Sessions. I am glad to hear that. I have tried to 
get that done, and I think it is important.
    Ms. Robinson. Right. I should clarify that we are strongly 
supportive of the notion of drug testing and are trying to 
support and encourage jurisdictions to do this whether or not 
they have Federal funding. We think it is a very complementary 
piece to really tracking what the kind of behavior problems 
are. And I certainly agree with you that many times people are 
arrested for crimes that may not per se on the charges be drug-
related, but that the behavior and the activity and the 
offending is related to their drug use.
    Senator Sessions. Deputy Attorney General Eric Holder, who 
was a Federal judge in the District of Columbia, and I 
discussed that at his hearings, and in the District of Columbia 
everyone is tested upon arrest, and he says it is an invaluable 
tool for a judge--not that they are going to lock them up for 
any longer period of time or punish them for testing positive, 
but so that the judge can craft the kind of sentence or parole 
or probation or drug testing or treatment that would be 
appropriate to change that person's life for the better. And to 
that degree, I feel very strongly that a well-run juvenile 
court system or any court system can, in fact, reduce drug 
addiction and reduce crime.
    Tell me about your reorganization efforts, how that would 
actually play out, and let me ask you: What would you say to 
those who might say, well, this is just OJP's attempt to take 
control of grant programs authorized by Congress and 
micromanage them? How would you respond to that comment?
    Ms. Robinson. Mr. Chairman, I spent the majority of my 
career outside the Federal Government, and I think one thing I 
have tried to do very much during my nearly 6 years within the 
Justice Department is to listen a lot to practitioners and 
constituent organizations about what they see as the problems 
in their interactions with the Federal Government, because I 
must say I experienced some of those frustrations when I was on 
the outside.
    Last year, or 2 years ago at this point, in our 
appropriations law, Congress directed me to present a report by 
January 1st of last year which discussed duplication and 
overlap within the Office of Justice Programs. The way our 
agency has grown up over the 30 years, going back from the LEAA 
period and up through several successive agencies to OJP, a 
variety of different components have greatly overlapping, 
statutorily overlapping jurisdiction, so that we have had a 
situation where, as an example, four of our bureaus and one 
office handle corrections issues, four of our bureaus and two 
offices handle domestic violence; gang issues are addressed by 
a whole variety of the components. And it was important 
particularly because of the need for outsiders, a mayor in a 
local jurisdiction, for example, a local DA, a police 
practitioner, to not have to be an expert on Washington and 
know what the 55 different funding streams are coming into OJP 
or which component and bureau and office or branch or section 
has a program. They need to just come to us and say: I have got 
a gang problem. What do I do?
    We need to make it very accessible, and we need to 
streamline so we don't have a whole variety of different 
pockets of activity on one issue within the agency.
    In our appropriation law for the current fiscal year, as 
you know, Congress directed us to develop elements of a 
proposed reorganization plan. And even though we had a 
relatively short time period, about 4 months, to do it in--it 
was submitted in early March--I thought it was very important 
that we do as much outreach as we could. So we talked to over 
50 practitioners and constituent organizations, and we also 
went around and talked to people within OJP and within the 
Justice Department and the U.S. Attorney community about what 
they saw.
    The report that we filed with Congress in the first part of 
March outlines a streamlined plan for advancing OJP, in my 
view, into the 21st century. It contemplates organizing around 
function to a greater degree than has existed before. It 
envisions organizing subject areas so that if you are 
interested in law enforcement or corrections, you can, in fact, 
go to one place. It envisions having research in one place, 
having statistics in another place, and not spread in several 
places across the agency.
    Very importantly, it also envisions a central--what I call 
a kind of information point or information central where an 
outside practitioner or constituent organization could come in 
and say, again: I have got a problem. What do I do? What can 
you offer to help? That will, in effect, serve as kind of a 
high-level triage, and here I would say I don't imagine the 
usual kind of 800 number with someone who is not knowledgeable 
answering the phone. I think we need to put our best expertise 
and resources into helping communities that call in for help 
find what they need. And it may be technical assistance; it may 
be some research knowledge and publications; it may be funding 
streams that are available or a conference coming up. It may be 
things they can--information they can get down off of our home 
page, but to make that real accessible to the outside world.
    Finally, it also envisions administration of the formula 
grant programs by geographic location so that you in effect 
have State desks. You would have an Idaho desk. You would have 
an Alabama desk. Right now we have people spread all across 
OJP, whether it is one program or the other or this one, who 
handle formula grant programs for a particular State. And that 
expertise is not being pooled. I think we can be a lot more 
responsive if we think in a geographically based way.
    So that is a very quick overview, but we do look forward to 
working with you and others in the Congress to forward these 
ideas.
    Senator Sessions. I think that has great potential, and I 
would like to see you succeed in that. I suppose one of the 
problems you may face is that over the last 25 years, a lot of 
different grant programs have been created. Senator Kohl just 
announced one today, and I announced one 2 years ago, and we 
all have it and it seemed like a good idea at the time. But 
fundamentally it sort of divides up, it strikes me, and makes 
it more difficult to give the freedom and to respond most 
effectively to a community in need.
    So it may be that you will find that we need to consolidate 
some programs that have been on the books a long time, and that 
the money can come out of one pot for a general effort rather 
than having to reach into a number of different program areas. 
Is that a problem?
    Ms. Robinson. Well, Senator, what this report does is not 
address the 55 funding streams, but tries to organize our 
administrative structure in a way that we can, for example, 
jointly administer all of the corrections grants together or 
all of the law enforcement----
    Senator Sessions. Well, let's just say we took all--
theoretically, at least, wouldn't it be progress if we found 
that there were 50 programs that are designed to help 
community-based law enforcement and if we could get that money 
into one area and a community could call in with a plan to 
strengthen their community justice law enforcement program and 
the money could come out of something like that? Would that be 
progress?
    Ms. Robinson. Consolidation of that kind is definitely a 
step that should be looked at. It would be very helpful to 
communities. I think once we get beyond the Beltway people 
don't know how to find their way through the maze, and we are 
trying to make it as easy as possible. But it certainly would 
be a step forward.
    Senator Sessions. With regard to the local law enforcement 
block grant, it was not the recommendation of OJP that that 
program be eliminated, was it? Your office didn't recommend 
that to the President, did it?
    Ms. Robinson. Mr. Chairman, we did not recommend its 
abolition.
    Senator Sessions. And you didn't recommend the truth-in-
sentencing be abolished either, did you?
    Ms. Robinson. We did not.
    Senator Sessions. Well, I just think that those are sound 
programs. If they need to be improved, we will try to improve 
them. But I really believe that money--and I think we will hear 
it today--is providing some real freedom and flexibility for 
local communities to craft their own plan for how to deal with 
crime in their communities.
    You have done an excellent job as always today, and I thank 
you for your courtesy, your responsiveness, and we want to make 
OJP better and to be an asset instead of a liability to the 
work that you are doing. Thank you very much.
    Ms. Robinson. Thank you, Senator.
    [The prepared statement of Ms. Robinson follows:]

                 Prepared Statement of Laurie Robinson

    Mr. Chairman and Members of the Subcommittee: I am pleased to have 
this opportunity to discuss the progress the Office of Justice Programs 
(OJP) has made over the last year in helping states and local 
communities reduce crime, improve their criminal and juvenile justice 
systems, assist crime victims, and restore public confidence in our 
nation's system of justice. I want to thank you, Mr. Chairman, and the 
other Members of this Subcommittee for the bipartisan support you have 
given OJP in working toward this mission.
    As you know, Mr. Chairman, OJP is comprised of five program bureaus 
and six program offices. The OJP program bureaus are: The Bureau of 
Justice Assistance (BJA) provides funding, training, and technical 
assistance to state and local governments to combat violent and drug-
related crime and to help improve the criminal justice system. Its 
programs include the Edward Byrne Memorial State and Local Law 
Enforcement Assistance formula and discretionary grant programs and the 
Local Law Enforcement Block Grants (LLEBG) program. BJA also 
administers the new Bulletproof Vest Grant Partnership Program, the 
State Criminal Alien Assistance Program, and the Regional Information 
Sharing System (RISS) Program.
    The Bureau of Justice Statistics (BJS) collects and analyzes 
statistical data on crime, criminal offenders, crime victims, and the 
operations of justice systems at all levels of government. It also 
provides financial and technical support to state statistical agencies 
and administers special programs that aid state and local governments 
in improving their criminal history records and information systems.
    The National Institute of Justice (NIJ) supports research and 
development programs, conducts demonstrations of innovative approaches 
to improve criminal justice, develops new criminal justice 
technologies, and evaluates the effectiveness of OJP-supported and 
other justice programs. NIJ also provides major support for the 
National Criminal Justice Reference Service (NCJRS), a clearinghouse of 
information on justice issues.
    The Office of Juvenile Justice and Delinquency Prevention (OJJDP) 
provides grants and contracts to states to help them improve their 
juvenile justice systems and sponsors innovative research, 
demonstration, evaluation, statistics, replication, technical 
assistance, and training programs to help improve the nation's 
understanding of and response to juvenile violence and delinquency.
    The Office for Victims of Crime (OVC) administers victim 
compensation and assistance grant programs created by the Victims of 
Crime Act of 1984 (VOCA). OVC also provides funding, training, and 
technical assistance to victim service organizations, criminal justice 
agencies, and other professionals to improve the nation's response to 
crime victims. OVC's programs are funded through the Crime Victims 
Fund, which is derived from fines and penalties collected from federal 
criminal offenders, not taxpayers.
    OJP's six program offices are: The Violence Against Women Office 
(VAWO) coordinates the Department of Justice's policy and other 
initiatives relating to violence against women and administers grant 
programs to help prevent, detect, and stop violence against women, 
including domestic violence, sexual assault, and stalking.
    The Corrections Program Office (CPO) provides financial and 
technical assistance to state and local governments to implement 
corrections-related programs, including correctional facility 
construction and corrections-based drug treatment programs.
    The Drug Courts Program Office (DCPO) supports the development, 
implementation, and improvement of drug courts through grants to local 
or state governments, courts, and tribal governments, as well as 
through technical assistance and training.
    The Executive Office for Weed and Seed (EOWS) helps communities 
build stronger, safer neighborhoods by implementing the Weed and Seed 
strategy, a community-based, multi-disciplinary approach to combating 
crime. Weed and Seed involves both law enforcement and community-
building activities, including economic development and support 
services. United States Attorneys are essential partners in the 
implementation of Operation Weed and Seed in communities throughout the 
country.
    The Office of the Police Corps and Law Enforcement Education 
(OPCLEE), which in November 1998 was moved by the Attorney General to 
OJP from the Justice Department's Office of Community Oriented Policing 
Services (COPS), provides college educational assistance to students 
who commit to public service in law enforcement, and scholarships--with 
no service commitment--for dependents of law enforcement officers who 
died in the line of duty.
    The proposed Office of State and Local Domestic Preparedness 
Support (OSLDPS) is responsible for enhancing the capacity and 
capability of state and local jurisdictions to prepare for and respond 
to incidents of domestic terrorism involving chemical and biological 
agents, radiological and explosive devices, and other weapons of 
massdestruction (WMD). It awards grants for equipment and provides 
training and technical assistance for state and local first responders. 
It also provides training for state and local first responders through 
five counterterrorism training centers, including the Center for 
Domestic Preparedness at Fort McClellan, Alabama.
    In addition, OJP's American Indian and Alaskan Native Office (AI/
AN) improves outreach to tribal communities. AI/AN works to enhance 
OJP's response to tribes by coordinating funding, training, and 
technical assistance and providing information about available OJP 
resources.
                      proposed ojp reorganization
    As you know, Mr. Chairman, the Conference Report for the Department 
of Justice 1999 Appropriations Act directed me to work with the 
Department of Justice to develop a plan for ``a new organizational 
structure'' for OJP. In calling for a new organizational plan for OJP, 
Congress specifically directed me to explore the consolidation and 
streamlining of agency activities in order to enhance OJP's stewardship 
of criminal and juvenile justice grant-in-aid initiatives.
    A few weeks ago, the Department submitted its plan to the Congress 
proposing a new organizational structure that we believe will meet the 
goals set by the Congress and that, in addition, is responsive to the 
principles of good government and sound management. In developing our 
proposal, we solicited guidance from a broad range of individuals, both 
from within the Department of Justice, and from the criminal justice 
field. The resulting plan reflects a shift from a decentralized to a 
centralized structure for OJP, under which overall authority for the 
management and administration of OJP programs and activities would be 
vested with the OJP Assistant Attorney General, under the general 
authority of the Attorney General.
    The reorganization plan also would streamline and consolidate 
functions within OJP; eliminate duplication and overlap of agency 
functions by integrating similar and related responsibilities into 
coherent organizational components; and move away for the historical 
practice of creating separate, and virtually independent, agency 
bureaus and program offices to administer specific federal funding 
streams authorized by the Congress. And I look forward to working with 
you, Mr. Chairman, on next steps.
                      crime rates continue decline
    At present, however, OJP continues to move aggressively ahead to 
meet its mission of assisting states and local communities to address 
crime. As a result of the sustained, bipartisan support--at the 
federal, state, and local levels--for comprehensive initiatives to 
address crime, we are continuing to see decreases in crime rates all 
across the nation. As you know, Mr. Chairman, crime rates are now at 
their lowest point in over 25 years. For the sixth year in a row, both 
major statistical indicators--the FBI's Uniform Crime Reporting Program 
(UCR) and the BJS National Crime Victimization Survey (NCFS)--show 
significant decreases in crime. And violent crime rates have fallen 
more than 21 percent since 1993.
    To help states and local communities maintain this momentum, and to 
build on what we have learned, OJP requested a total of $2.2 billion 
for fiscal year 2000. As you know, Mr. Chairman, this is less than our 
fiscal year 1999 appropriation, but to arrive at their request, some 
difficult choices had to be made by the Administration within the 
spending levels available.
    In my view, Mr. Chairman, a critical role the federal government 
can and should play in helping states and communities reduce crime is 
to support research, demonstrations, and evaluations to determine what 
works, and then to target funds to help local jurisdictions adopt and 
adapt specific approaches that have shown to be effective or promising. 
And back to the earliest days of this program in LEAA in the 1960's, it 
is also clear to me that a mix is needed of formula funds, 
discretionary monies, technical assistance, research, and training.
    I would like to highlight, Mr. Chairman, five critical areas where 
we propose to target OJP funds next fiscal year to build on efforts 
that are promising or having a positive impact in making communities 
safer.
                 enhancing criminal justice technology
    The first area I would like to highlight is enhancing criminal 
justice technology. Law enforcement today must have a solid 
technological infrastructure to fight crime effectively. This means 
possessing adequate computer hardware to utilize software such as 
geographic information system for crime mapping, and having adequate 
resources to reduce the backlog of DNA samples in our nation's crime 
laboratories. It means providing interoperable wireless communications 
systems and global information networks. It also means developing 
sophisticated technology and improving the overall forensic science 
capabilities of state and local labs. While the federal government 
cannot and should not be the sole support for these efforts, it can 
provide seed money for pilot projects, demonstration programs, one-time 
technological upgrades, and laboratory equipment.
    For fiscal year 2000, DOJ is requesting a total of $350 million to 
help states and local communities build technological infrastructure 
and leverage limited dollars to ensure the greatest effectiveness in 
our efforts to secure public safety. Out of that total, OJP will 
administer the following programs:
    --$80 million for a new Public Safety Wireless Telecommunications 
Assistance Program. The goal of this program is to ensure that state 
and local public safety wireless communications systems are compatible 
with federal law enforcement radio systems. Currently, in every 
metropolitan area of the country, each federal, state, and local law 
enforcement agency operates separate tactical radio networks. This 
hampers communication between different jurisdictions, a problem that 
can mean the difference between life and death in responding to crisis 
situations. This program would provide grants to states to help them 
develop comprehensive telecommunications system plans and fund 
demonstration grants. The program also would assist jurisdictions in 
implementing public safety communication systems and provide technical 
assistance in the planning and development process.
    --$20 million for the Global Information Integration Network 
Initiative. This effort seeks to develop a nationwide network of 
criminal justice information systems so that state and local 
authorities will have immediate access to information needed to help 
them on the job. With this funding, OJP can expand the assistance it is 
already providing to state and local government by funding a limited 
number of planning grants. The grants will be used by states, which 
will work with their local governments to develop strategies for 
integrating existing criminal justice information systems. Pilot 
projects would also be conducted. In addition, funding would be 
provided to develop standards, guidelines, and protocols for 
information sharing and analysis tools to facilitate interoperability.
    --$10 million to continue funding for the National Law Enforcement 
and Corrections Technology Centers (NLECTC). These centers help law 
enforcement and corrections practitioners identify appropriate 
technology solutions for specific problems. For example, NLECTC helped 
Utica, New York improve its case closure rate for arson from 2 percent 
to 52 percent with a 100 percent conviction rate, by providing them 
with tools such as a digital camera system to record suspects' faces at 
vulnerable buildings.
    --$15 million to eliminate the 1 million convicted offender DNA 
sample backlog at state and local crime labs. Currently analysts find 
one ``hit'' or match per 1,000 samples entered into the FBI's national 
database (CODIS). At this rate, eliminating the 1 million case backlog 
could result in 1,000 more offenders off the streets.
    --$15 million for other police communications improvements, 
including further development of the AGILE (Advanced Generation of 
Interoperability for Law Enforcement) car. This high-tech car allows 
officers to enter data electronically at the scene of a crime, 
accident, or traffic stop, and receive responses without returning to 
their vehicles. Officers may use hand-held units linking electronically 
the information from the car to the unit. The AGILE system also allows 
officers to transmit accurate voices and images while at the scene. The 
open architecture of the system will allow industry to quickly develop 
and integrate new technologies into these cars.
    --$5 million for continued based funding for NIJ's DNA Research and 
Development Program. The goal of this multiyear program, started in 
1999, is to reduce the time and cost of performing DNA analysis--and 
make it more easily portable for use right at crime scene.
    --$55 million to establish the Crime Lab Improvement Program 
(CLIP). This new program will be an expanded version of the DNA 
Identification Grant Program. CLIP seeks to go beyond DNA analysis and 
improve the general forensic sciences capabilities of labs by awarding 
grants to state and local governments to improve their investigative 
and analytic capabilities. Funding will also be used to provide 
research, technical assistance, and training to help inform agencies 
about lab capabilities that are available nationwide and to provide 
guidance on the types of equipment to purchase.
    --$50 million to upgrade criminal history, criminal justice, and 
identification record systems; promote compatibility and participation 
in federal, state, and local systems; and capture information for 
statistical and research programs, as authorized by the Crime 
Identification Technology Act of 1998.
                  addressing youth crime and violence
    OJP will continue its focus on preventing and intervening in crime, 
violence, and substance abuse by juveniles. Despite statistics showing 
decreases in juvenile arrest rates, youth violence is still a 
continuing concern. I want to highlight two key areas where OJP is 
focusing its efforts;
    1. Substance Abuse. Although we have made progress in teaching 
young people about the dangers of substance abuse, we still have a long 
way to go to prevent young people from abusing drugs and alcohol. OJP 
is requesting $20 million for fiscal year 2000--a $10 million 
increase--for the Drug Prevention Demonstration Program for youth to 
build on our current effort by supporting new suites to demonstrate 
proven methods to reduce teenage drug use.
    2. Youth Gun Violence. Although the violent crime arrest rate for 
juveniles has dropped 23 percent from 1994 to 1997, as we saw with last 
year's shootings, the impact of gun violence on young people remains 
tragically high. Between 1984 and 1993, the firearm homicide rate for 
youth between the ages of 15 and 24 increased 158 percent. According 
tostudies, a teenager today is more likely to die of a gunshot wound 
than of any disease.
    OJP proposes to set aside $10 million from the Title V, At Risk 
Children's Program for an initiative to prevent and reduce youth gun 
violence. This program, currently being implemented and evaluated in 
four cities, seeks to reduce juveniles' illegal access to guns and 
address the reasons they carry and use guns in violent exchanges. 
Communities participating in the program are required to implement 
seven program strategies that, together, represent a comprehensive 
approach to addressing the prevention, intervention, and suppression of 
youth gun violence. This funding would enable OJP to provide 
approximately $300,000 is grants to 20-25 new communities to implement 
this program; $1 million will be used to provide technical assistance 
and training to the sites, and $1.5 million will support an evaluation 
of this initiative.
    And we are also requesting $35 million for grants to states and 
localities to develop alternative methods of punishment for young 
offenders, including juvenile gun courts, restitution, education and 
job training programs, and correctional options such as electronic 
monitoring and community-based or weekend incarceration.
                    ensuring offender accountability
    OJP also continues to be committed to finding ways to hold 
offenders accountable for their behavior, to reduce recidivism, and to 
increase public safety. One behavior that we know is closely linked to 
crime is, of course, substance abuse. Data from our Bureau of Justice 
Statistics show, for example, that--1 in 6 offenders landed in prison 
for a crime committed just to get money for drugs; almost a third of 
prisoners were using drugs or alcohol at the time they committed their 
crimes; and more than 80 percent of prisoners have a history of drug 
and alcohol use.
    Yet our data also show that only 15 percent of inmates received 
drug treatment while in prison, even though from the huge volume of 
research in this area by our National Institute of Justice and others, 
we know that treatment works, we know that coerced treatment works, we 
know that the longer an offender is in treatment the greater the 
likelihood of success, and we know that transitioned treatment under 
post-release supervision is essential to making treatment in prison 
``stick.''
    For fiscal year 2000, OJP is requesting over $240 million to break 
the cycle of substances abuse and crime through a comprehensive 
strategy of drug testing, drug treatment, sanctions, and community 
follow-up for released offenders, as well as research, targeted 
juvenile prevention efforts, and data collection to measure program 
success.
    Of this total, $100 million would support a drug testing and 
intervention initiative that would provide discretionary grants to 
states, local units of government, courts, and Indian tribal 
governments for comprehensive drug testing, treatment, and graduated 
sanctions programs that address adults and juveniles under the 
supervision of the criminal justice system. In essence, this program 
could help keep offenders on a ``short leash,'' and hold them 
responsible for their drug addiction with a combination of drug 
testing, interventions, and sanctions.
    OJP is also requesting $65.1 million for the Residential Substance 
Abuse Treatment (RSAT) Program, which provides funds for individual and 
group substance abuse treatment activities for offenders in residential 
facilities operated by state and local correctional agencies. In 
addition, we have proposed allowing states to use their RSAT grant 
funds for testing, treatment, and sanctions, both during incarceration 
and for aftercare, which research has found to be critical for ensuring 
continued abstinence.
    And we are requesting $50 million, a $10 million increase, for the 
Drug Court Grant Program, which has proven so successful in reducing 
recidivism among nonviolent, drug-abusing offenders. In quick summary, 
drug courts use the coercive authority of the courts to change offender 
behavior. In 1989, a few communities began experimenting with an 
approach to address the needs of substance-abusing offenders that 
integrated substance abuse treatment, sanctions, and incentives with 
case processing to place nonviolent, drug-involved defendants in 
judicially supervised habitation programs. Now, nationally more than 
530 jurisdictions have implemented or are planning to implement a drug 
court to address the problems of substance abuse and crime. Local 
coalitions of judges, prosecutors, attorneys, treatment professionals, 
law enforcement officials, and others are using the coercive power of 
the court to force abstinence and alter behavior with a combination of 
escalating sanctions, mandatory drug testing, treatment, and strong 
aftercare programs to teach responsibility and help offenders reenter 
the community. OJP's fiscal year 2000 budget request would provide 
continued federal assistance to help local communities plan, implement, 
or enhance drug courts.
    Our Arrestee Drug Abuse Monitoring (ADAM) program, managed by NIJ, 
enables urban, suburban, rural, and tribal communities to collect and 
analyze data on local drug use based on interviews and urinalyses of 
booked arrestees. Communities can then use their analyses to identify 
local drug use trends and to strategically plan policies and approaches 
to address their specific drug problems. This is the only ongoing 
federally conducted survey specifically collecting local data on crime-
drug links. OJP has requested $4.8 million in fiscal year 2000 to 
expand ADAM form 35 to 50 sites.
    In addition, we are requesting $7.2 million to support a national 
demonstration initiative on alcohol and crime. Research shows a 
definitive relationship between alcohol abuse and crime, but more needs 
to be known about how to effectively address this problem. Under this 
initiative, $4 million would be used to award grants to 13 communities 
to develop comprehensive, community-level enforcement and prevention 
programs aimed at combating underage drinking, drinking and driving, 
and alcohol-related crime to break the link between alcohol and crime, 
within the criminal justice system.
                   enhancing community-based efforts
    One of the key roles in federal criminal justice assistance is to 
provide hands-on technical assistance, research, and demonstration 
project grants to local communities to help them identify their unique 
crime problems, develop a comprehensive strategy to address those 
specific problems, and then, on a limited basis, implement projects to 
put those plans in action. OJP's premier grassroots, community-level 
program is Weed and Seed, an initiative combining law enforcement and 
prevention that was developed during the Bush Administration. Weed and 
Seed programs have tremendous community and neighborhood support. In 
addition, their methodologies have been independently evaluated and 
determined to work in reducing crime and improving the vitality of 
neighborhoods. The number of Weed and Seed sites has grown from 23 in 
1993 to 178 today. In fact, as you know, Mr. Chairman, Mobile was one 
of the original Weed and Seed sites, and has provided technical 
assistance and training to help two other Alabama sites develop their 
Weed and Seed strategies. We are requesting a total of $40 million, the 
same as in 1999, including $6.5 million from the Asset Forfeit Super 
Surplus Fund, for this program to bring the number of sites to 225 in 
fiscal year 2000.
    We also are requesting $200 million for a Community Prosecutor 
Grant Program that would increase the number of local prosecutors who 
work closely with law enforcement, other criminal justice system 
members, and community groups to prevent, investigate, and respond to 
local crime. This program would build on the success of community 
policing by emphasizing partnerships with the community to solve crime-
related problems and ensure public safety. Under community prosecution, 
prosecutors shift their emphasis from processing cases to focus on 
identifying local crime problems and working to address public safety 
issues and improve the quality of life in neighborhoods. And they do so 
by maintaining a presence in the community, not from inaccessible 
downtown office buildings.
    We are also seeking $125 million for a crime prevention initiative 
to support partnerships among police, prosecutors, probation and parole 
agencies, schools, business leaders, civil associations, social service 
agencies, and other stakeholders who can work together to create safe 
and secure neighborhoods. Of this total funding, OJP would administer 
$65 million to develop community planning strategies and implement 
prevention programs, including $20 million specifically targeting at-
risk groups, such as court-involved youth and neglected and abused 
children, and for programs that improve the reintegration of released 
offenders into the community. I cannot tell you, Mr. Chairman, how many 
local police chiefs I have talked to as I have traveled the country 
over the past five years who told me the importance they place on 
prevention as a critical part of our efforts to reduce crime in this 
nation. The requested funds would help communities implement these 
important prevention efforts.
    And we are requesting $30 million for the Community Mapping, 
Planning, and Analysis for Safety Strategies program (COMPASS). COMPASS 
uses advanced crime mapping techniques to build local crime data 
collection and analysis capacity in urban, suburban, and rural 
communities to better predict crime in neighborhoods. COMPASS would 
develop a whole new way of understanding crime in its local context and 
give law enforcement and other criminal justice practitioners the tools 
they need to adapt deployment and other resources to changing crime 
patterns. NIJ is supporting a pilot initiative to test the program this 
year, and we are requesting $30 million to expand this program to 
additional sites in fiscal year 2000.
                 counterterrorism/domestic preparedness
    Finally, OJP will continue its efforts to help state and local 
authorities prepare for and respond to incidents of domestic terrorism. 
I want to thank you, Mr. Chairman, and the other Members of this 
Subcommittee and Congress for your bipartisan support for this criminal 
area. OJP is proud to be a part of the Justice Department's team 
tackling this critical issue under the leadership of the Attorney 
General and the umbrella of the newly proposed National Domestic 
Preparedness Office (NDPO) in the FBI. As you know, Mr. Chairman, while 
domestic preparedness may be a new mission for OJP, working in close 
partnership with state and local jurisdictions is not. OJP and its 
predecessor agencies have three decades of experience working as 
partners with states and local communities--bringing innovation, 
program development, financial and technical assistance, and capacity 
building to help reduce crime and enhance the criminal system. We are 
now putting this experience to work to aggressively address the problem 
of state and local domestic preparedness.
    Over the past 9 months, I have had the opportunity to visit the 
five counterterrorism training centers supported in part by OJP and to 
talk to the state and local officials--those on the front lines, the 
first responders--about their needs in this critical area and what the 
federalgovernment can do to best support their efforts. From those 
discussions, it is apparent that the primary needs in the field are for 
training, technical assistance, and equipment.
    In fiscal year 1999, $135 million was provided for state and local 
support of training and equipment programs to improve the national 
level of readiness of first responders to terrorism incidents. In 
fiscal year 2000, OJP is requesting a $38.5 million increase, mainly 
for equipment purchases, but also to provide additional training and 
technical assistance to better prepare the nation's state, local, and 
federal first responders to reach to such attacks with the skill and 
the tools necessary to protect themselves and the public.
    In fiscal year 2000, the Department is requesting that 
counterterrorism grant funds be appropriated directly to OJP, rather 
than to the Attorney General. This simply ensures that program 
implementation can proceed as quickly as possible, without delays 
caused by technical funds redistribution procedures that must be 
reviewed both internally and by the Office of Management and Budget.
    As you know, Mr. Chairman, OJP works with the National Domestic 
Preparedness Consortium, which is developing and delivering additional 
training and technical assistance for state and local first responders. 
The Consortium includes the Center for Domestic Preparedness (CDP), 
which we opened last June with your support, Mr. Chairman, at Fort 
McClellan, Alabama. As you know, CDP is the only facility in the Free 
World that provides advanced training in the handling and management of 
live chemical agents. In the 9 months since we opened the Center, it 
has already trained over 650 first responders in basic awareness, 
incident command, and incident management--and we expect to train 
another 1,200 during 1999. We are requesting $17 million for CDP, $9 
million more than in fiscal year 1999. This includes $11 million to 
cover the increased costs OJP will face after the army base formally 
closes in September 1999.
    We also are requesting $7 million for a new Law Enforcement First 
Responder Training Program, consisting of a 2-day basic awareness 
course that will provide ``train-the-trainer'' and ``on-site training'' 
approaches to law enforcement officers. This will allow them to fulfill 
their role as first responders to a weapons of mass destruction 
terrorist incident.
    In addition to training, local jurisdictions also need specialized 
equipment to be able to respond safely and effectively to incidents 
involving chemical or biological agents or weapons of mass destruction. 
So we are requesting $6 million to expand the First Responder Equipment 
Acquisition Grant Program to help local jurisdictions purchase personal 
protection, decontamination, detection, and other equipment that is 
essential to building our capability to effectively respond to weapons 
of mass destruction. An additional $3 million is requested to expand 
OJP's targeted technical assistance program, which provides 
individualized technical assistance to state and local jurisdictions 
participating in our domestic preparedness programs.
                               conclusion
    This is hardly an exhaustive list of all the major programs OJP 
proposes to undertake in fiscal year 2000, but merely some of the 
highlights. I pledge to you, Mr. Chairman, my personal commitment to 
working with you, the Members of this Committee, and other Members of 
Congress to ensure that state and local criminal justice practitioners 
have the resources they need to effectively address crime and ensure 
the safety of their communities. I look forward to continuing to work 
with you in a bipartisan fashion toward this goal, and I would be happy 
now to respond to any questions you or the Subcommittee Members may 
have.

    Senator Sessions. We will have our next panel, if you would 
step forward: Chief John Wilson, Judge Chet Vahle, Judge 
Patricia West, and Mr. Harry Shorstein.
    Chief Wilson serves as police chief of the Montgomery 
Police Department. His notable police service has garnered him 
numerous awards and honors, including recognition as 
Outstanding Young Law Enforcement Officer in 1984. That was 
just yesterday, John.
    Chief Wilson. Not hardly.
    Senator Sessions. He has still got to be young. He is a 
member of several law enforcement organizations and has studied 
at the FBI National Academy and with the U.S. Attorneys Law 
Enforcement Coordinating Committee. The Montgomery Police 
Department is an excellent department.
    Judge Chet Vahle was appointed to the bench in 1987, has 
been a full-time juvenile judge for the Eighth Circuit in 
Illinois since 1991. He previously served as a public defender 
and an assistant State's attorney. Judge Vahle is a member of 
the Board of Trustees of the National Council of Juvenile and 
Family Court Judges and served as Chair of its Juvenile 
Delinquency Committee from 1996 to 1998. Judge, it is a delight 
to have you with us.
    Patricia West was elected to serve as a Virginia Beach 
juvenile court judge by the Virginia General Assembly in 
January of 1998. Prior to accepting the post, she served as 
Virginia's Secretary of Public Safety. Judge West has been a 
strong advocate for victims of crime and has been honored with 
an outstanding service award from the Virginia Network for 
Victims and Witnesses of Crime and is an articulate spokesman 
for good law enforcement.
    Mr. Harry Shorstein has been the State attorney for the 
Fourth Circuit of Florida since 1991. He previously worked in 
private practice and brought a fresh approach and new outlook 
to law enforcement and has done an outstanding job in the city 
of Jacksonville in creating a thoughtful, broad-based approach 
to actually reducing crime rather than just catching a few 
criminals. Harry, good to see you again and good to have you 
with us.
    Chief, do you want to start off with remarks? We do have 
these lights here that will say stop. Senator Thurmond said he 
was going to lock somebody up yesterday, I think it was, if 
they went too long, but I am not that way. If you need a few 
minutes extra, you can take them.

 PANEL CONSISTING OF COLONEL JOHN H. WILSON, CHIEF OF POLICE, 
   MONTGOMERY, AL; HON. CHET W. VAHLE, JUVENILE COURT JUDGE, 
 QUINCY, IL, ON BEHALF OF THE NATIONAL COUNCIL OF JUVENILE AND 
   FAMILY COURT JUDGES; HON. PATRICIA L. WEST, JUVENILE AND 
  DOMESTIC RELATIONS DISTRICT COURT, VIRGINIA BEACH, VA; AND 
HARRY L. SHORSTEIN, STATE ATTORNEY, FOURTH JUDICIAL CIRCUIT OF 
                   FLORIDA, JACKSONVILLE, FL

              STATEMENT OF COLONEL JOHN H. WILSON

    Chief Wilson. I will be very brief. You have my letter that 
you can use for the record, and I won't read it verbatim. I 
think I can make my point quickly.
    First, I would like to thank you for the opportunity to 
come up here and speak not only for myself and the city of 
Montgomery but for the Alabama Police Chiefs Association as 
well.
    When I first heard about the possibility that the local 
block grant program would be eliminated--I heard about it from 
a State official, and I talked to some colleagues about it--the 
first question that came to mind is: Why? And their answer was, 
well, it was working too good, so they have got to do something 
to it.
    It has been one of the most effective grants I have ever 
been involved in in my 24 years as a law enforcement officer 
and 13 years as chief of police, and the reason I have 
aggressively sought this grant, whereas in the past we have 
passively used some others, a kind of take-it-or-leave-it 
attitude, is its flexibility. It is very simple, and it allows 
us to do, as Mr. Kohl stated earlier, what our people tell us 
they want.
    As you talked about the mayor in the other city who said he 
used it one way, we don't have a problem with cars or anything 
like that. But it did allow us to use it in a different way 
every day, if needed. A very short small example: During the 
Christmas season it starts, when all the ladies and wives are 
going out spending their millions of dollars, starting in 
November, through January when they are taking everything they 
bought back, we use it as a shopping center detail. And this 
past year and the year before, we did not have one significant 
incident of any kind.
    Senator Sessions. In the shopping----
    Chief Wilson. In the area where we applied this detail and 
we used this overtime money. I am talking about no purse 
snatchings, no robberies, no assaults, no nothing.
    Senator Sessions. So you used it for overtime?
    Chief Wilson. Certainly. That is our----
    Senator Sessions. That is how you can expand your presence 
in the community?
    Chief Wilson. Exactly. Some other cities in the State of 
Alabama can take exactly the same grant and buy cars with it or 
buy technology with it, and we can use exactly the same grant 
in a way that our people's voices tell us loud and clear they 
want us to use it. And as Mr. Kohl stated--and he stated it 
very well--our people, our citizens, and our police department 
know far better how they want us to police than somebody here. 
After all, we do not need to lose sight of the fact that it is 
their money.
    Senator Sessions. Your mayor was elected, and you were 
selected by the mayor in the city to run the police department.
    Chief Wilson. And we are held accountable on a local level, 
and our people tell us what their needs are. It may be a rape 
detail one day, a burglary detail the next. That kind of 
flexibility is what we need in order to do the job.
    As you know, my mayor has lobbied you for a long time to 
try to help us get that kind of flexibility. It would be an 
absolute disaster to see us take a step back.
    [The prepared statement of Chief Wilson follows:]

               Prepared Statement of Col. John H. Wilson

    I would like to begin my testimony today by thanking Senator 
Sessions for inviting me to appear at today's subcommittee hearing to 
express my thoughts about the importance of preserving the local law 
enforcement block grant program. I have known Senator Sessions for some 
time, and I am pleased to have been given this opportunity to appear 
before the Youth Violence Subcommittee today on behalf of the City of 
Montgomery's Police Department.
    As Chief of the Montgomery Police Department, I have had the 
opportunity to actively participate in the local law enforcement block 
grant program. Recently, however, I have become aware of the 
President's proposal to discontinue funding for this block grant 
program. Apparently, the President has submitted a fiscal year 2000 
budget request for the Department of Justice that cuts over $500 
million in funding for this program. Let me be perfectly candid, the 
President's proposal, if enacted, will be very detrimental to the 
citizens of Montgomery and to the hundreds of thousands of individuals 
across the nation who benefit from this kind of grant provided to the 
local police departments.
    The City of Montgomery receives approximately $400,000 annually 
through this program and, without question, this has been one of the 
most effective grant programs I've been involved in during my 24 year 
career. What makes this grant the most effective, and what separates it 
from many of the other programs that we refused to participate in, is 
that it does away with all of the bureaucratic, spider-webbing, and 
nightmare logistics that usually accompany such grants. To put it in 
plain language, this has been one of the more universal, user-friendly 
grants I've seen. It allows each department to tailor its use to the 
needs that concern that community the most on any given day, instead of 
having all the strings and personal agendas that usually accompany 
grants. It states merely that it should address the street level crimes 
that affects every law-abiding citizen the most.
    The beauty of this grant is that it will allow me, and the City of 
Montgomery, to address street level crimes in our own area, whereas in 
Mobile or Birmingham, street crime may be entirely different. Despite 
these differences, all three cities are able to operate under the same 
grant to attack their crime problem. In Montgomery, for example, we 
have been able to utilize this funding to pay overtime to the police 
officers on our force so as to encourage them to work longer hours. As 
a result, we are able to increase police presence to effectively fight 
crime in targeted high-crimes areas throughout the city without having 
to hire additional officers.
    It will be a real shame if the Justice Department decides to do 
away with this grant. It would be really sad to go back to the old ways 
of doing business of having to apply astrology, voodoo magic and any 
other form of nonsense, in order to accomplish the same things that can 
be done in a more simplistic way. I can promise you this, if the 
President tries to go back to the old strings-attached method, our 
police department and many others would not be involved, and everybody 
would lose.
    On behalf of myself, other police departments and the citizens we 
serve, please encourage the President to continue this grant, so that 
we may all enjoy its continued success. I look forward to answering any 
questions you may have about Montgomery's use of this program.

    Senator Sessions. Thank you, Chief.
    Judge.

                STATEMENT OF JUDGE CHET W. VAHLE

    Judge Vahle. Thank you, Mr. Chairman. Chairman Sessions, 
ranking member, and other members of the committee, the 
National Council of Juvenile and Family Court Judges is honored 
to have the opportunity to testify before you today on the 
judges' experience with Federal funding of juvenile court and 
law enforcement programs. I want to commend you personally and 
the other members of the committee as well for the leadership 
that you have shown over many years on the vital issue of 
juvenile crime.
    Last year, in my home county, Adams County, IL, we received 
$1.5 million through the violent offender incarceration/truth-
in-sentencing block grant program. These funds are being used 
along with about $2.5 million from our local taxing body to 
construct a 30-bed detention and treatment facility. The new 
facility will have local purposes, as noted in my written 
remarks, but it will serve the needs of at least six, if not 
more, surrounding counties that are too small and too poor to 
afford centers themselves.
    It is only fair to say that the availability of this money 
from the Federal Government has served as the catalyst for this 
project. It wouldn't have happened, at least not for a good 
deal of time, without this money. The National Council believes 
that Federal support of State and local efforts to prevent and 
combat juvenile delinquency and crime is essential. Moreover, 
we believe that the form of that support should present a 
balance between discretionary funding and formula block grants.
    Accordingly, I was surprised to learn, as were the hundreds 
of National Council judges, prosecutors, law enforcement, and 
other personnel with whom I was meeting earlier this week in 
Minneapolis at the National Juvenile Justice Conference, that 
the administration proposes to provide no funds for some of 
these programs in the next fiscal year.
    Mr. Chairman, we at the National Council are respectful and 
appreciative of the commitment to preventing and combating 
juvenile crime shown by the Attorney General and Assistant 
Attorney General Robinson and OJJDP Director Bilchik. But the 
administration proposes to substitute for the programs they 
would eliminate or cut new direct Federal-to-local programs run 
from Washington. Discretionary funding is an important 
component of a balanced, strategic approach to juvenile 
justice, but none of the proposed funding that we can see, 
however, would assist courts in dealing with juvenile 
delinquents or are directly relevant to smaller jurisdictions 
like mine, about 70,000 in my county.
    The National Council has long believed that judgescannot 
address problems of youth crime and its devastating effect and harm on 
the quality of life in the community, as well as to victims, only from 
behind the bench. But judges must advocate for policies and programs to 
prevent crime before it occurs and escalates and not only to respond 
vigorously afterwards. This we call ``working smarter.''
    In Illinois and in most other States, juvenile justice 
reform legislation enacted in the last few years stresses that 
law enforcement and the courts work smarter to achieve more 
concrete results that hold offenders accountable, reduce crime, 
and improve the quality of life for the community.
    The formula block grant programs will allow communities and 
States to take a big step toward working smarter. This will 
happen in four main ways:
    First, local jurisdictions can target and address their 
most pressing problems after consulting at the local level.
    Second, they will be able to share the costs of needed 
facilities, personnel, technology, and programs, which they 
wouldn't be able to afford otherwise. They will share that cost 
with the Federal Government. They will put up money on their 
own as well.
    Third, new research data and more successful practices can 
be combined to establish more effective programs, which can 
then be replicated elsewhere if successful. We have seen that 
happen through OJJDP assistance.
    And, fourth, as we have seen in Quincy and Adams County, 
the seed (Federal) money that comes in attracts local support 
and contributions and increased local responsibility and 
initiative--in short, a major ripple effect. Greater local 
attention to the myriad issues of juvenile crime has led to 
more interest in community prevention programs which can be 
more effective and cheaper than remedial efforts and lead to 
less need for incarceration, which we can then reserve for 
those truly dangerous offenders that need to be locked up. In 
other words, we work smarter.
    The Office of Justice Programs and OJJDP have done a 
brilliant job over the past 5 years funding relevant research, 
statistical analysis, training and technical assistance. We 
wouldn't want to change a thing in this area except to ensure 
that adequate funding continues. We see OJJDP's research and 
assistance as being like a clear mountain stream that comes 
down within its own environment, serving its own purposes and 
clientele. We in the juvenile justice field rely heavily on it 
for advice, for leadership, this research which is 
knowledgeable in particular to juvenile crime, but still 
provided in the overview of fighting crime as a whole.
    We would hate to see that vital stream diverted into 
another area just for the sake of putting all your water in one 
place. We would hate to see it lose its identity. We certainly 
understand the need and the desire to eliminate waste and 
consolidate functions and make those functions more accessible 
to the public. We just want to make sure that the good work 
that they have done over the past few years is not abandoned in 
favor of consolidation. In other words, if it is not broke, we 
really would not like to see it worked on and fixed.
    In short, Mr. Chairman, we greatly appreciate this 
opportunity to appear here today, and the National Council of 
Juvenile and Family Court Judges always stands ready to try to 
assist and answer questions for you or the rest of the 
subcommittee in any way that you think we might be able.
    Thank you very much.
    [The prepared statement of Judge Vahle follows:]

               Prepared Statement of Judge Chet W. Vahle

    Chairman Sessions, Senator Biden and members of the subcommittee: 
The National Council (NCJFCJ) is honored to have the opportunity to 
testify before you today on the judges' experience with federal funding 
of juvenile court and law enforcement programs in our communities and 
on related matters. I would like to commend the Chairman, Ranking 
Member and each member of the subcommittee for the leadership you each 
have shown over many years on the vital issue of juvenile crime.
    I also had the privilege of appearing at a press conference 
yesterday and made a statement of strong support by NCJFCJ of new 
legislation introduced by Senator DeWine and others which will benefit 
abused and neglected children before our courts. All too often children 
who judges see as abused and neglected, or for that matter as truants 
or ``tootsie roll thieves'' at often very young ages, later turn up in 
our courts as serious, violent delinquents. That is because until the 
rate of youth crime exploded in recent years, we judges, law 
enforcement officials, school principals and other community leaders 
did not act together soon enough. But we are working smarter now and, I 
believe, beginning to get good results and that's what I want to tell 
you about today. But, I am getting ahead of myself.
    I appear for the NCJFCJ, not as a representative of Illinois or its 
judges. I currently sit as an Illinois juvenile court judge of the 
Eighth Circuit in Quincy (population about 45,000) in Adams County 
(population about 70,000). I have served in the criminal and juvenile 
courts and, before that, as a public defender and as a prosecutor--in 
all for almost 25 years. I was first appointed to the bench in 1987 and 
have served as a full-time juvenile court judge since 1991.
    I am a member of the Board of Trustees of NCJFCJ, serve on its 
federal legislation committee, and served as the Chair of the Juvenile 
Delinquency Committee 1996-1998. I have been a member of the Illinois 
Supreme Court's Juvenile Law Study Committee since 1993. Currently, I 
also serve as a Chair of the U.S. Department of Justice Office of 
Victims of Crime-sponsored project, ``The Juvenile Court Response to 
Victims of Juvenile Crime,'' which is conducted by NCJFCJ.
            new regional juvenile detention/treatment center
    Last year, Adams County received $1.5 million through the Violent 
Offender Incarceration/Truth in Sentencing Grant Program. These funds 
are being supplemented with approximately $2.5 million local tax 
dollars to plan and construct a 30-bed juvenile detention and treatment 
center, replacing an obsolete and deteriorated detention center which 
years ago had been converted from a group home. Late next year, when we 
hope the new center will open, we will have a facility which will serve 
multiple purposes:
    a. Provide secure detention for dangerous offenders (through age 
17), both pre-trial and post-sentencing;
    b. Provide appropriate safety for inmates and staff;
    c. Provide a forum for post-sentencing secure rehabilitation and 
counseling short of commitment to the State Department of Corrections 
(DOC) where rehabilitation efforts are limited. This is significant 
because offenders almost always return to their home community, and 
local staff can gauge rehabilitation success more accurately with the 
community's needs in mind without the added expense and uncertainty of 
DOC commitment;
    d. Make rehabilitation in a secure setting part of a continuum of 
community-based services;
    e. Serve the detention needs of six surrounding smaller counties 
that cannot afford or justify their own detention center.
    This project has generated much community interest in the needs of 
our juvenile justice system and the role of the community participation 
in it. It has focused attention not only on how the community responds 
to juvenile crime but how it might be prevented. This is consistent 
with the NCJFCJ philosophy that the community must be primarily 
responsible for the welfare and development of its children, not 
relying on state or national government to take responsibility and 
action. Nevertheless, it is only fair to say that the availability of 
this federal grant has provided the community with a catalyst for the 
much-needed facility. Undoubtedly, we have it up and running earlier 
than if the federal grant had not been available.
    Further, two other similar regional detention centers are also in 
progress in Illinois, one in Springfield and one in Champaign, each 
also partially funded from $1.5 million Violent Offender Incarceration/
Truth in Sentencing grants, which I understand overall nationally is 
funded at slightly more than $750 million this year.
    NCJFCJ believes that Federal support of state and local efforts to 
prevent and combat juvenile delinquency and crime is essential. 
Moreover, we believe that the formof that support should represent a 
balance between formula block grants and discretionary grant programs. 
Accordingly, I was surprised to learn, as were the hundreds of NCJFCJ 
judges, prosecutors, law enforcement officials and others with whom I 
was meeting earlier this week in Minneapolis, that the Administration 
proposes to provide no funds for this program in the next fiscal year.
    To put our local situation so far as federal grants for courts and 
law enforcement are concerned in context, in addition to the $1.5 
million for the Regional Detention Center, between 1995 and 1997 the 
Quincy Police Department received $345,161 in DOJ grants, $300,000 
through the COPS Program and $45,161 through the Local Law Enforcement 
Block Grant (LLEBG) Program from which the Sheriff's Department is also 
receiving $20,000 this year. An appendix describes these five grants 
and the purposes for which they have been utilized, all to meet 
important community needs.
                jaibg program specifically helps courts
    The Juvenile Accountability Incentive Block Grant Program recently 
provided by Congress and administered by OJJDP now has available 
(fiscal years 1998, 1999) a total of over $17.5 million in Illinois. 
JAIBG is of particular interest to juvenile courts because of the 12 
purposes for which grants can be utilized. For the first time, several 
are court specific. They are correctional and detention facilities for 
juveniles, accountability-based sanction programs, improved court 
administration and information sharing programs, technology, equipment 
and training and even availability of funds in court personnel, 
especially probation officers.
    However, here again, there appears a cloud on the horizon. In 
addition to eliminating the whole program from which we received the 
$1.5 million detention center grant, the Administration also proposes 
to eliminate the whole JAIBG program, currently funded at $250 million 
nationally, as well as the LLIBG program, currently funded at $523 
million. It would also cut back other grant programs that benefit local 
communities, such as the ``Edward Byrne'' grant program.
    Mr. Chairman, we at NCJFCJ have nothing but respect and admiration 
for the commitment to preventing and combating juvenile crime shown by 
the Attorney General, Assistant Attorney General Laurie Robinson and 
OJJDP Director Shay Bilchik. The Administration proposes to substitute 
for the programs they would eliminate or cut, new direct federal-to-
local programs run from Washington. Discretionary funding of this sort 
is an important component of a balanced strategic approach to juvenile 
justice. None of the proposed funding that we can see however, would 
assist courts dealing with delinquent offenders, and none that we can 
see would be directly relevant to jurisdictions like Quincy or Adams 
County, Illinois, or other smaller locations in our state or elsewhere.
         ncjfcj supports jaibg as part of ojjdp reauthorization
    NCJFCJ is concerned that comprehensive juvenile justice reform 
legislation, including reauthorization of OJJDP failed, yet again in 
the 105th Congress. Juvenile and family courts have benefited 
significantly from OJJDP's programs and funding. Most recently with the 
advent of JAIBG we saw further potential support for the courts.
    NCJFCJ believes that the Juvenile Justice Accountability Block 
Grants Program should be extended and be incorporated into the 
legislation to reauthorize OJJDP, which we hope will finally be passed 
this year. The JAIBG requirement of graduated accountability-based 
sanctions systems for juvenile offenders is sound. It conforms with 
long-standing NCJFCJ policy, is necessary to the court's role of 
protecting the public, and is the basis for the court's goal of 
rehabilitating juvenile offenders.
                graduated accountability-based sanctions
    Accountability-based sanctions must be: sure, swift, and 
consistent; designed to repair harm caused by the offender; based in 
the offender's community; flexible and diverse enough to fit a variety 
of situations and types of offenders; and sufficiently graduated to 
respond appropriately to every misstep in a delinquent's career, from 
first to last. The concept encompasses community and system 
accountability as well as individual accountability.
    With this foundation, communities can rework their juvenile justice 
systems so that they are speedy; efficient, and accountable for 
consistent outcomes; improve information collection and encourage 
information sharing; offer a variety of accountability-based programs; 
and respond to offenses in a firm and consistent manner.
    Programs for delinquents vary from jurisdiction to jurisdiction 
depending on many factors. All courts and communities should give 
special attention to all first-time offenders and must have effective 
policies/programs/sanctions for children who shoplift, steal vehicles, 
use and/or deal in drugs or are gang members. Sex offenders and 
arsonists (sometimes the same individual) are other offenders requiring 
specialprograms/sanctions. In some large jurisdictions, special dockets 
are appropriate for drug offenders (drug courts). Probation programs 
vary in intensity from informal supervision to house arrest. School-
based probation works well in many jurisdictions, as do teen courts/
peer jury programs. Then there is the whole range of community service, 
restitution, fines and fees, victim-offender mediation programs.
    Alternative schools, day or evening custody/treatment, out or in-
patient mental health and alcohol/drug treatment, drug testing, boot 
camps, halfway houses and aftercare especially following 
incarceration--all of these are programs effectively employed in many 
jurisdictions.
                 risk assessments key for public safety
    Components appropriate in some cases include monitoring, tutoring, 
victim awareness, anger management, or job skills training, family 
counseling and family crises intervention.
    Screening and assessment is key with respect to an offender's risk 
to public safety, need for alcohol and/or drug treatment, health and 
mental health, education and job skills.
    All courts/probation departments should have formal criteria for 
detention and, of course, expedited case processing for serious and 
violent juvenile offenders.
    Only a well-administered court/probation department can 
successfully implement a graduated, accountability-based sanctions 
system and no jurisdiction can be well administered without the 
technology, training and an effective automated management information 
system. Furthermore, information sharing is necessary between courts/
probation and law enforcement, prosecutors, schools and community 
agencies and programs.
    NCJFCJ believes that juvenile offenders who commit repeated 
offenses should receive graduated sanctions; that is, each conviction 
should result in its own consequences and those consequences should be 
enforced. However, we also believe that state judges should select the 
specific types of sanctions imposed with appropriate input from the 
prosecution and defense.
                             record keeping
    In today's mobile society, many juveniles reside in more than one 
jurisdiction during the years they would be subject to juvenile court 
jurisdiction. We believe that complete, accurate information about a 
juvenile's prior record, including offenses committed in other 
jurisdictions, should be available when making decisions involving the 
juvenile within the system. We encourage the federal government to help 
fund efforts to coordinate and improve the availability of juvenile 
records to law enforcement, prosecutors and the courts.
    NCJFCJ believes that judicial, as opposed to prosecutorial or 
legislative discretion (except in capital cases) should be applied in 
sentencing decisions and in the decision to transfer a juvenile 
offender to criminal court for trial. The juvenile court judge 
generally has first-hand knowledge of the offender, his prior record, 
and his response to prior sanctions, incarcerations and services.
    NCJFCJ believes that provision for prevention and early 
intervention programs for deprived children and adequate funding for 
such programs should be a key component of any comprehensive federal 
juvenile justice legislation.
    Congress should provide adequately for education, training and 
technical assistance for courts and court-related personnel, as well as 
for other components, law enforcement, corrections, etc.
        research, statistics, training and technical assistance
    The Office of Justice Programs and OJJDP have done a brilliant job 
over the course of the past five years in funding relevant research, 
statistical analysis, training and technical assistance. But, even more 
important to juvenile court and the juvenile justice community judges, 
they have their research and statistical analyses directly available to 
the practice community rather than only burying them in academic 
publications. They have also done the same thing with their training 
and technical assistance. Their decision to fund cross-site technical 
assistance and training combined with their use of the Internet to 
provide interactive statistical capacity and their use of video 
conferencing have enormously imparted the accessibility of these 
resources to the entire juvenile justice community.
    But perhaps the most valuable feature of OJJDP's research, 
statistics, training and technical assistance is the recognition that 
need varies and resources vary from community to community and state to 
state. Their work products invariably enable me to identify my 
community in the analysis presented and compare my circumstances to 
communities like mine and to the state and nation if I wish. As a rule, 
they are not in thebusiness of producing one-size-fits-all answers. I 
would not change a thing in these areas except to ensure that adequate 
funding continues. Their work gives full cognizance to the fact that 
every state has a specialized court for juveniles and the work of these 
courts requires research, statistics, training and technical assistance 
that is fully integrated with and sensitive to the procedures and 
programs of these courts.
                                formula
    While we are convinced that JAIBG is long overdue and should be 
extended and continued within a reauthorized juvenile justice agency, 
the formula for JAIBG favors cities with serious crime problems. Such a 
focus, while understandable, tends to penalize juvenile courts and 
prosecutors which are county-based. They must provide services for the 
entire county including the city, but their funding base under the 
JAIBG formula excludes the city population, thereby reducing the funds 
available to courts and prosecutors to serve the total county 
population.
                            working smarter
    NCJFCJ has long believed that judges cannot address problems of 
youth crime, its devastating harm to victims and to the quality of 
community life only from behind the bench. They should be out there in 
front as leaders advocating for policies and programs to prevent crime 
before it occurs and escalates, not only to respond vigorously 
afterwards. This we call ``working smarter.''
    In Illinois and in most other states, juvenile justice reform 
legislation enacted in the last few years stresses that law enforcement 
and the courts work smarter to achieve more concrete results that hold 
offenders accountable, reduce crime and improve the quality of life for 
the community. To work smarter, communities and juvenile courts must 
draw upon the extensive research data, which has become available. To 
work smarter, the justice system must hold juvenile offenders 
accountable to victims and the communities. To work smarter, law 
enforcement, courts and communities must have sufficient personnel, 
effective methodologies in place and programs available that most suit 
the local needs.
    It is imperative that we try to reduce the number of prison-bound 
offenders through local programs designed to help communities prevent 
and deal with delinquency and more effectively hold offenders 
accountable. The JAIBG program will allow communities and states to 
take a big step toward working smarter. This will happen in four ways:
    (a) First, local jurisdictions can target and address their most 
pressing problems;
    (b) Second, they will be able to share the costs of needed 
personnel, technology and programs, which they would not have been able 
to afford otherwise;
    (c) Third, new research data and more successful practices can be 
combined to establish more effective programs, which can be relocated 
elsewhere if successful;
    (d) Fourth, as we have seen in Quincy and Adams County, the seed 
(federal) money attracted local support and contributions. It generated 
increased local responsibility and initiative, in short, a ripple 
effect. Greater local attention to the myriad issues of juvenile crime 
has led to more interest in community prevention programs which can be 
more effective and cheaper than remedial efforts and lead to less need 
for incarceration which can be reserved for those truly dangerous 
offenders who do not respond to prior accountability-based sanctions.
                      unless broken, don't fix it
    In this testimony, I have tried to share NCJFCJ judges' experience 
with federal assistance programs, especially those of OJP/OJJDP which 
we generally strongly support, particularly as they have been 
implemented in recent years.
    As Congress again attempts to reauthorize the federal juvenile 
justice program which NCJFCJ hopes will finally occur this year, our 
advice is don't fix it unless it's broken. Where you believe it may be 
broken, please share your concerns with those who work in the system, 
including judges.
    In the closing days of the 105th Congress last fall, NCJFCJ 
believed that well-balanced, workable legislation, including JAIBG 
extension and well-conceived provision for proven effective prevention 
programs, had been worked out. We were disappointed, as were so many 
other major organizations representing local and state interests, that 
legislation was not passed. Please, this year, just do it.
    Thank you, Mr. Chairman, for inviting me to testify here today for 
the National Council of Juvenile and Family Court Judges. We are always 
available to answer your and members' questions and those of your fine 
staff, or to provide information or ideas.

  Appendix: Recent DOJ/OJP Law Enforcement Grants to Quincy and Adams 
                               County, IL

    (1) $20,000 (1999), Local Law Enforcement ``LLEBG'' Block Grant 
Program, the Adams County Sheriff's Department received this grant to 
replace light bar, siren, and loudspeaker attachments for 16 squad 
cars. The existing equipment was bought used, is over 15 years old, and 
is worn out. The new equipment will benefit both the officers and the 
public which rely upon adequate warning equipment.
    (2) $25,000 (1996), $20,161 (1997), the Quincy Police Department 
received the above two LLEBG grants used for technology upgrades, 
applied to the cost of equipping squad cars with a mobile data computer 
system. This will allow instant checks on vehicle records, wanted 
persons, stolen items, and aid in tracking locations of operational 
squad cars.
    (3) $150,000 (1995), ($150,000) (1996-97), both were COPS grants to 
the Quincy Police Department used to hire additional needed officers 
and to implement pro-active community programs, including Neighborhood 
Watch, DARE, Citizen Police Academy for Kids, Senior Citizen Police 
Academy, Volunteers in Policing and Triad for the Elderly.

    Senator Sessions. Thank you very much, Judge, and I do 
appreciate the National Council of Juvenile and Family Court 
Judges, and you have chaired their Youth Violent Committee. Or 
do you still?
    Judge Vahle. It was a 2-year chairmanship. This last year I 
have been working on the Office for Victims of Crime-funded 
project, the juvenile court response to victims of juvenile 
crime. And we have been working on that for about a year and a 
half, and we have put out some work product which we think will 
be useful to juvenile courts across the country in dealing with 
juvenile crime offenders and the victims that suffer on account 
of them.
    Senator Sessions. Well, thank you very much, and I thank 
you for your support and that of the Council.
    Judge Vahle. Thank you, Senator.
    Senator Sessions. Judge West.

              STATEMENT OF JUDGE PATRICIA L. WEST

    Judge West. Mr. Chairman, thank you for the opportunity to 
be here with you this afternoon to address a topic that really 
has probably been the single primary focus of my career, and 
that is juvenile crime, and I want to address specifically the 
President's decision to submit a budget request which 
eliminates the funding for the juvenile accountability 
incentive block grant program.
    I would like to state from the outset that I strongly 
support this program, and I think that you deserve a lot of 
credit for making sure that this block grant funding has been 
in the budget for the last 2 years, and I think that the 
President has made a serious mistake in eliminating this 
funding, and I am hopeful that Congress will rectify that 
mistake.
    Let me share with you some of my reasons for being so 
supportive of the block grant program.
    To begin with, as I understand it, this is the only program 
that constitutes juvenile law enforcement money for the 
localities. Prevention programs are important, and I see--the 
chart is gone now, but I saw that there was quite a bit of 
money that goes into prevention, and that is very important. 
But it is not sufficient in and of itself to address the whole 
juvenile crime problem. In fact, I may be playing with words, 
but I feel that prevention, when you talk about the juvenile 
justice system, it is too late for prevention. If they are in 
the system, it is too late for prevention. You can have early 
intervention, and I believe very strongly in that. But they are 
there, and so prevention I think of as back with the 3-, 4-, 5-
, 6-year-olds, the Head Start programs, all those kinds of 
things. So I really think that this program is very important 
to that.
    Additionally, I support this grant program because it is 
designed to be flexible in its application to State and local 
law enforcement. They can apply the resources that they receive 
in the manner that they deem best supports their efforts to 
combat their juvenile crime problems.
    I am especially pleased that this program as administered 
presently and as envisioned in the Hatch-Sessions juvenile 
crime legislation allows for money to be spent on development 
and administering of accountability-based sanctions for 
juvenile offenders. I have a lot of experience with 
accountability-based sanctions, and I want to tailor the 
remainder of my remarks around this concept to highlight one 
example of a successful law enforcement initiative that will be 
hindered if this juvenile accountability incentive block grant 
program disappears.
    In my opinion, the concept of accountability-based 
graduated sanctions is vitally important to the success of the 
juvenile justice system. Graduated sanctions result in the 
juvenile offenders receiving a tangible consequence, 
punishment, if you will, for every criminal act; and, further, 
the severity of the consequences tend to increase with each 
contact with the court. The punishment can be combined with 
treatment or services, but the key principle is that each and 
every contact with the court is a meaningful event for the 
offender.
    I have been fortunate in my career, as I have progressed 
through my career, to view the juvenile justice system from a 
variety of perspectives--from prosecution to correctional 
administration, which included responsibility for juvenile 
correctional centers and juvenile probation and parole 
services, and finally as a judge who hears juvenile delinquency 
cases. The single overriding theme that I have stressed in my 
various role is accountability, including rehabilitative 
services if appropriate and needed, as well as punishment, even 
when that concept of punishment was not particularly popular or 
accepted by the juvenile justice professionals. The concept of 
graduated sanctions really is the embodiment of accountability.
    Although I have consistently argued for accountability and 
consequences for criminal behavior, more often than not the 
disposition in cases has been unsatisfactory to me, to the 
victim, and to the general public. Again, that wasbecause of 
the traditional notion that there was no room for retribution in the 
juvenile justice system, and also because the options for disposition 
were limited by resources. Later on I will address a typical 
disposition pattern of a repeat juvenile offender if there are no 
graduated sanctions, but right now I just want to say that many judges 
did the best they could with what they had, acting within the statutory 
confines prior to 1996.
    Fortunately, Virginia and other States have taken a very 
active role in trying to overcome some of the shortcomings of 
the system, including the shortage of resources. During 
Governor Allen's term, we increased our appropriations by over 
50 percent to juvenile justice systems. States like Virginia 
have shown their commitment to improving their juvenile justice 
system, and I urge Congress to assist them in their efforts.
    I want to talk now about some specific experiences that I 
had, and one in particular in 1993, when I was a deputy 
Commonwealth's attorney in Norfolk, remains very vivid in my 
mind and, frankly, served as an incentive for my future efforts 
in juvenile justice reform.
    I was speaking with a defense attorney who represented a 
juvenile charged with, I think, burglary and grand larceny. 
They were felony charges, not particularly heinous felonies, 
and they were this juvenile's first felony offenses. And I 
proposed a disposition to that defense attorney involving 
supervised probation, restitution, community service, things 
that I didn't think were particularly harsh for that type of 
crime. And the defense attorney looked at me, in all 
seriousness, and with a certain amount of indignation said, 
``Come on, you know the first felony is free.'' And that 
statement was all too accurate at the time and really conformed 
with the common practices, but what an indictment on the system 
and what a wake-up call for change in our juvenile justice 
system.
    To underscore the importance of the concept of graduated 
sanctions, it is important to describe what the system looked 
like without those graduated sanctions. During my years as a 
prosecutor, the typical disposition pattern of a juvenile 
offender was the following: The first one, two, three, maybe 
more contacts, depending on the nature of the contact with the 
criminal justice system, did not even result in a court 
appearance. The police officer would give a warning or juvenile 
intake would----
    Senator Sessions. Was that in Virginia?
    Judge West. This is overall.
    Senator Sessions. Overall?
    Judge West. It is my particular experience, but in talking 
with others, I have found that it was very typical around the 
country. They could be diverted at intake for treatment or 
services. After intake finally felt that they had exhausted all 
non-judicial intervention options and the juvenile was 
continuing to get in trouble, a petition would be filed on the 
next offense, and the juvenile went before the court. A typical 
``first offense'' disposition--first in the sense that it was 
the first offense to come before the court--would be 
unsupervised probation, which usually consisted of telling a 
juvenile to obey their parents' rules and perhaps ordering them 
to comply with certain rules specified by the court, for 
example, go to school every day, obey your curfew.
    The next time in court might result in another try at 
unsupervised probation, or perhaps they might move up to 
supervised probation.
    Senator Sessions. Unsupervised means nobody is checking to 
see if they abide by the probation.
    Judge West. That is exactly right. In court, I tell the 
parents that they are their children's probation officers, and 
I try to stress that they need to report if it is not working. 
But that is exactly what it means. There is no one within the 
system watching for unsupervised probation.
    On supervised probation, they may receive probation rules 
and be required to go to counseling or some other type of 
treatment program. The next time in court would likelyresult in 
continued supervised probation, and I have to say that as prosecutors 
we sarcastically dubbed that ``double super secret probation.'' It 
didn't work the first time. We weren't real optimistic the second time. 
But we didn't have any other choices.
    Finally, out of sheer frustration on the part of judges and 
probation staff, the next contact might result in a commitment 
to the Department of Juvenile Justice, but typically the 
juvenile offender was back in the community before the 
commitment paperwork was done. And the juvenile's reaction to 
commitment was disbelief and amazement. And why was that? 
Because the system had not done anything to them before for all 
the crimes that had been committed.
    Senator Sessions. You are talking about after six, seven, 
eight arrests before the first commitment occurs.
    Judge West. Yes, sir. In the juvenile's mind, they----
    Senator Sessions. I agree. People think that we are talking 
about the need for detention space. They don't realize we are 
talking about multiple offenders, not the first offender.
    Judge West. Not first offenses.
    Senator Sessions. Please. I am sorry to interrupt you. That 
is an important point, I think.
    Judge West. I know my time is running short. I also just 
wanted to say that another flaw inherent in the way the system 
is working is the few programs that do exist, because we are 
talking about offenders who are coming in really on their sixth 
or seventh offense--the first time they may see a judge--we are 
putting them in programs that might be appropriate if they 
really were truly first offenders. And what we are doing is we 
are messing up the programs that we do have, and I have one 
example of that.
    In Virginia Beach, we had offenders washing police cars, 
and they were first offenders to the court. They might be sixth 
or seventh time offenders as far as contacts with the court. 
And they were inappropriate for this, and we had to discontinue 
the program because they were vandalizing the police cars. If 
this were their first time in, maybe it really would have been 
the appropriate sanction. It gave the community something and 
it taught them a lesson. But we are ruining the good programs 
we have by having inappropriate offenders placed in them 
because of the lack of enough programs to put people in 
appropriate places.
    I will try to wrap it up now. I know I have gone well over 
my time.
    I just wanted to say that the State reform efforts have not 
been about dismantling the juvenile justice system, and I know 
that Virginia and the other States have gotten a lot of press 
and criticism about all the things they are doing as far as 
transfer provisions and making hearings open and public, and we 
are now testing juveniles for DNA. But the other side of that 
coin, something that has not gotten the attention by the press, 
is that we are also promoting these graduated sanctions, 
accountability-based sanctions, so that the system can work 
better. We are not talking about locking everyone up. We are 
talking about making sure that the sanction fits the crime.
    I urge Congress to do the right thing and put the money 
back in the budget to rectify the President's serious mistake 
in taking that out.
    The rest of my remarks I have submitted. Thank you very 
much.
    [The prepared statement of Judge West follows:]

                 Prepared Statement of Patricia L. West

    Thank you for the opportunity to be with you this morning to 
address a topic that has been the primary focus of my career, juvenile 
crime.
    I have been asked to address the President's decision to submit a 
budget request which eliminates funding for the Juvenile Accountability 
Incentive Block Grant program. I would like to state from the outset 
that I strongly support this program, and I believe the Chairman of the 
Youth Violence Subcommittee, Senator Sessions, deserves credit for 
working to ensure that funding for this block grant program has been 
available over the last two years. I believe the President has made a 
serious mistake in deciding to eliminate this program, and I believe 
that Congress should reverse the President's decision by including 
funding for this program in the fiscal year 2000 Appropriations bills 
that are considered this year.
    Let me share with you my reasons for being so supportive of the 
Juvenile Accountability Incentive Block Grant program. To begin with, 
as I understand it, this program constitutes the only source of federal 
money made available for juvenile law enforcement purposes. While 
prevention programs can be important components of comprehensive 
juvenile crime initiatives, they are not sufficient in and of 
themselves. Assistance also needs to be made available for juvenile law 
enforcement purposes. The problem of juvenile crime is complex and 
multifaceted, but we cannot afford to lose sight of the importance of 
law enforcement in arriving at a solution.
    Additionally, I support this grant program because it is designed 
to be flexible in its application so that state and local law 
enforcement can apply the resources they receive in the manner they 
deem best supports their efforts to combat their juvenile crime 
problems. I am especially pleased that this program as administered 
presently, and also as envisioned in the Hatch-Sessions juvenile crime 
legislation, allows for money to be spent on the development and 
adminstering of accountability-based sanctions for juvenile offenderes. 
I have a great deal of experience with accountability-based graduated 
sanctions programs, and I would like to tailor the remainder of my 
remarks around this concept, so as to highlight just one example of a 
successful law enforcement initiative that will be hindered in its 
development throughout the country if the Juvenile Accountability 
Incentive Block Grant program disappears.
    In my opinion, the concept of accountability based graduated 
sanctions is vitally important to the success of the juvenile justice 
system. Graduated sanctions result in juvenile offenders receiving a 
tangible consequence, punishment if you will, for every criminal act, 
and further, the severity of consequences will in most cases increase 
with each offense. The punishment may well be combined with treatment 
or services, but the key principle is that each and every court contact 
is a meaningful event for the offender.
    I have been fortunate as my career has progressed to view the 
juvenile justice system from a variety of perspectives; from 
prosecution to correctional administration which included 
responsibility for juvenile correctional centers as well as juvenile 
probation and parole services, and finally as a judge who hears 
juvenile delinquency cases. The single overriding theme that I have 
stressed in my various roles in accountability, including 
rehabilitative services if appropriate and needed, as well as 
punishment, even when the concept of punishment was not particularly 
popular (and maybe it still isn't) or accepted by the ``juvenile 
justice professions.'' The concept of graduated sanctions is the 
embodiment of accountabililty.
    At one point in time not too long ago, holding juveniles 
accountable for their crimes was easier said than done, both because of 
attitudes among people in the system and the lack of sentencing options 
available. First, there was a commonly held belief that punishment had 
no role in the juvenile system. You only have to look as far back as 
the Virginia code prior to 1996 where the purpose and intent of the 
juvenile and domestic relations district courts was defined with the 
singular stated goal of promoting the best interest of the child before 
the court. While that was fine in abuse or neglect cases and in 
custody, visitation and support cases, it was woefully inadequate in 
delinquency proceedings. Fortunately, in 1996, public safety and the 
protection of victims' rights were added as proper considerations for 
the court in delinquency proceedings. These two additions to the 
purpose and intent clause were significant, both practically as well as 
symbolically, but let me add that I for one never saw a conflict 
between the concept of punishment and the singularly stated purpose of 
pursing dispositions in the best interest of the child. In most cases, 
even though the juvenile may not realize it, punishment which may have 
a corrective impact on the juvenile's behavior, is in their best 
interest.
    Although I have consistently argued for accountability and 
consequences for criminal behavior, more often than not, the 
disposition was unsatisfactory to me, the victim and the general 
public. Again, that was because of the traditional notion that there 
was not room for retribution in the juvenile justice system, and also 
because the options for disposition were limited by resources. I will 
address the typical disposition pattern of a repeat juvenile offender 
in detail a little later, but I raise this issue now to make the point 
that although outdated philosophical views guided some judges resulting 
in the ineffective handling of delinquency cases, in some cases it was 
a lack of resources and options that caused failures in the system. 
Many judges did the best they could with what they had, acting within 
the statutory confines prior to 1996. Fortunately, Virginia has taken a 
very active approach in addressing both the philosophical shortcomings 
of the system as well as the shortage of resources devoted to the 
system. During Governor George Allen's term, appropriations from the 
state to the juvenile justice system statewide (including 
appropriations to localities) increased over 50 percent. States like 
Virginia have shown their commitment to improving their juvenile 
justice system process, and I urge Congress to assist them in their 
efforts. The Juvenile Accountability Incentive Block Grant program, if 
funded, will help address this problem of resources that so many 
communities throughout this country face.
    An experience I had in 1993 when I was Deputy Commonwealth's 
Attorney in Norfolk remains vivid in my mind and frankly, served as an 
incentive for my future efforts in juvenile justice reform. I was 
speaking with a defense attorney who represented a juvenile charged 
with, I believe, burglary and grand larceny which were this particular 
juvenile's first felony charges. I proposed a disposition involving 
supervised probation, restitution and community service which seemed 
appropriate, consistent with options available, and not particularly 
harsh for two felony charges. The defense attorney looked at me in all 
seriousness and with a certain amount of indignation said, ``Come on, 
you know the first felony is free!'' Unfortunately, his statement was 
all too accurate and conformed with common practices in juvenile court 
at that time. What an indictment on the system, and what a wake up call 
for change.
    To underscore the importance of the concept of graduated sanctions, 
it is important to describe what the system looked like without 
graduated sanctions. During my years as a prosecutor, the typical 
disposition pattern a juvenile offender could expect was the following: 
The first one, two, maybe three or more contacts, depending on the 
nature of the contact, with the criminal justice system did not even 
result in a court appearance. The police officer would give warnings or 
juvenile intake would divert the juvenile for treatment or services. 
After intake finally felt that they had exhausted all non-judicial 
intervention options and the juvenile was continuing to get in trouble, 
a petition would be filed on the next offense, and the juvenile went 
before the court. A typical ``first offense'' disposition (first in the 
sense it was the first offense to come before the court) would 
beunsupervised probation which usually consisted of telling a juvenile 
to obey their parents' rules and perhaps ordering them to comply with 
certain rules specified by court order; for example, go to school 
everyday, obey curfew, etc. The juvenile's next time in court might 
result in another try at unsupervised probation, or perhaps the 
juvenile might move up to supervised probation. On supervised 
probation, the juvenile would receive probation rules and might be 
required to go to counseling or some other type of treatment program. 
The next time the juvenile was in court would likely result in 
continued supervised probation (or as we prosecutor's sarcastically 
dubbed it, double super secret probation) or a suspended commitment to 
the Department of Juvenile Justice. Finally after many contacts and 
usually out of sheer frustration on the part of judges and probation 
staff, the next contact with the system might result in a commitment to 
the Department of Juvenile Justice, but even then, the juvenile 
offender could be back in the community before the paperwork on his 
commitment was complete. And the juvenile's reaction to commitment; 
disbelief, amazement. Why? Because the system has not done anything to 
him before for all the crimes he had committed, at least in his mind. 
To a juvenile, diversion, unsupervised probation, supervised probation, 
suspended commitment all meant that he walked out of the courtroom and 
that ``nothing happened'', and truly, nothing tangible and concrete had 
happened.
    Another flaw inherent in the way the system worked was that once 
the court decided to take action, the service or sanction that was 
imposed would often be inappropriate for the offender's level of 
criminality. This was usually a function of judges trying to preserve 
scarce resources and programs for more problematic individuals, but 
what it succeeded in doing was making programs which might have been 
effective, failures because they were filled with inappropriate 
juveniles. The best example I can think of was a program we had in 
Virginia Beach where juveniles were required to wash police cars as 
part of their sentence. In theory, it was a great idea; the juvenile 
had a tangible consequence and the City received a benefit. Well, as I 
stated earlier, a juvenile had often acquired a substantial unofficial 
record before he ever came to court. As a result, the juveniles 
assigned to this program were already well along the path to becoming 
career criminals. It was not long before the program had to be 
discontinued because of vandalism to the police cars. This is a perfect 
example of a program that might work very well for a true first 
offender but failed miserably because inappropriate juveniles were 
being assigned to the program.
    A system that fails to provide consistent and appropriate sanctions 
for each and every offense reinforces criminal behavior and gives 
juveniles the impression (rightly so in many cases) that they can break 
the law with impunity. As a prosecutor, I faced a dilemma each time I 
spoke to juveniles about the system because if I were to be completely 
truthful with them, I would have to tell them they could probably 
commit quite a few crimes before consequences that they deem 
significant would happen. The fact is though, I would likely have been 
telling many of them something they already knew. Juveniles, especially 
the ones most likely to be involved in the system, often know how the 
system works better than many attorneys, and juveniles viewed the 
system as a joke.
    Because of the increase in numbers and the escalating severity of 
juvenile crime, along with the public's outrage at a secretive system 
they did not believe was protecting them, many states, including 
Virginia, sought to change the way juvenile courts did business. In 
1995, when I was Director of the Virginia Department of Juvenile 
Justice, I had the privilege of serving on Governor Allen's Commission 
on Juvenile Justice Reform. That commission was the catalyst for 
sweeping changes in all areas of juvenile justice in Virginia, but 
while the transfer provisions, DNA sampling and public access to 
juvenile records received the media hype, the less publicized but 
equally important concept of accountability and graduated sanctions was 
endorsed as well. The number of intake diversions was limited, and 
while sentencing guidelines are not easily adopted in juvenile courts 
because of the individuality of each case as well as the fact that 
jurisdictions have differing problem areas and resources, the idea of 
each offense resulting in a tangible consequence was strongly promoted. 
It required a cultural change; a change in attitudes from a treatment, 
best interest of the child mentality to the common sense and easily 
understandable concept that criminal actions result in certain 
consequences. It is important to note that the accountability concept 
as it is promoted through graduated sanctions is in the best interest 
of the child and that we do the juvenile no favor by ignoring or 
excusing his illegal actions. It is also important to realize that the 
graduated sanctions approach is not mutually exclusive with providing 
rehabilitative services. The two complement each other.
    State reform efforts have not been about dismantling the juvenile 
justice system but have been about strengthening it. Strengthening the 
juvenile justice system is what I believe the federal reform efforts 
are all about as well, and that's why I'm here to urge Congress to 
promote the implementation of graduated sanctions which make the system 
more effective. Funds made available under the Juvenile Accountability 
Incentive Block Grant will encourage states to promote the concept of 
graduated sanctions. This is vital to successfully reforming the 
juvenile justice system. Equally as vital is the recognition that 
although the philosophy of graduated sanctions needs to be endorsed and 
promoted by state governments, it is the localities that will actually 
implement the programs. Having said that, I encourage you to renew the 
Juvenile Accountability Incentive Block Grant with a general provision 
requiring states to move toward a juvenile justice system utilizing 
graduated sanctions yet maintaining flexibility for implementation by 
the localities. Localities should be encouraged by the federal and 
state governments to adopt graduated sanctions that fit the needs of 
their specific community. A one size fits all approach dictated by 
either the state or the federal government is doomed to fail because 
the problems of localities are varied. The localities need maximum 
flexibility to address their individual concerns.
    Thank you once again for the opportunity to be here today, and I 
would be happy to answer any questions you may have.

    Senator Sessions. Thank you. We will make them a part of 
the record.
    Mr. Shorstein.

                STATEMENT OF HARRY L. SHORSTEIN

    Mr. Shorstein. Mr. Chairman, thank you for the invitation 
to again speak with you about our Nation's criminal justice 
system and, more specifically, juvenile justice, where you have 
shown us great leadership.
    As I speak with you today, it appears that once again a 
debate is raging between punishment and prevention as the 
solution to crime. It is my strong belief that the citizens of 
our Nation deserve more than a repeat of old arguments.
    We need a two-pronged approach to the epidemic of juvenile 
crime. We must incarcerate repeat and violent juvenile 
offenders, help them return to an environment different from 
which they came, and at the same time intervene at an early age 
with children at risk of becoming criminals. With the 
cooperation, assistance, and support of the Office of Justice 
Programs, my office has developed a comprehensive strategy to 
address juvenile crime based on this philosophy. It is working.
    In an article written for the New York Times, Pulitzer 
Prize-winning reporter Fox Butterfield called our program of 
sanctions and intervention ``a preemptive strike'' approach to 
reducing juvenile crime and, of course, ultimately reducing all 
crime. The term ``preemptive strike'' describes vividly what we 
are trying to accomplish by moving decisively to head off 
problems before they occur or worsen. We would like to make 
this article a part of the record.
    Senator Sessions. I would be delighted. I am impressed with 
his work, and I remember the New York Times article he wrote 
about Chicago, Judge West, in which he discovered they spent 15 
minutes per case. The caseload was so heavy the judges were 
only able to address 15 minutes per defendant coming through 
the system. At that point, there is not an effective ability to 
intervene in criminal behavior.
    Excuse me. We would be glad to make that a part of the 
record.
    [The article follows:]
    [GRAPHIC] [TIFF OMITTED] T2480A.001
    
    [GRAPHIC] [TIFF OMITTED] T2480A.002
    
    [GRAPHIC] [TIFF OMITTED] T2480A.003
    
    Mr. Shorstein. Thank you, Mr. Chairman.
    Since 1993, there has been a 44 percent reduction in 
arrests of juveniles for violent crime in Jacksonville. This 
includes a 78 percent reduction in murder, a 51 percent 
reduction in rape and other sex offenses, a 45 percent 
reduction in robbery, and a 40 percent reduction in aggravated 
assault. In addition to these violent crimes, there has also 
been a 67 percent reduction in arrests of juveniles for the 
gateway crime of vehicle theft and a 56 percent reduction in 
weapons crimes.
    The picture in my community was not always so positive. 
When I took office, our city was faced with a 27 percent 
increase in the number of juveniles arrested from 1990 to 1991, 
and during the 4 years prior to the implementation of our 
program, 1989 to 1993, juvenile violent crime arrests had 
increased 78 percent.
    Now to the point of the hearings. There is a legitimate and 
important role for the Federal Government in crime prevention. 
That role is not through federalization of crime but, instead, 
through financial support of State and local law enforcement. 
That should not be curtailed. A perfect example of the 
appropriate and important role that the Federal Government can 
play is the Office of Juvenile Justice and Delinquency 
Prevention. This agency provides critically needed support for 
creative locally developed solutions to the problems of 
juvenile crime.
    In Jacksonville, we have received substantial support for 
both juvenile and adult criminal justice programming, much of 
it from the Office of Justice Programs.
    In my program, truancy and avoiding out-of-school 
suspension are critical to juvenile crime prevention. When 
appropriate, we aggressively prosecute parents for not sending 
their children to school. Children must go to school. Studies 
tell us that serious juvenile offenders begin as habitual 
truants.
    To address the increasing juvenile drug abuse problem, I 
implemented a juvenile drug court. Juveniles accepted in the 
drug court are immediately enrolled in a multi-phased 
outpatient program. Juvenile drug court includes an educational 
component and psychological services for the juvenile and the 
juvenile's parents.
    Truancy prevention and juvenile drug court are two examples 
of programming that has been directly assisted by Federal 
support through the Office of Justice Programs.
    Our juvenile program, however, is much more than truancy 
and drug court. There must be punishment.
    In the New York Times article, one young man was quoted as 
saying, ``I thought it was kind of harsh, but the word is out 
on the streets. That is why there are fewer kids in the jail.''
    Simple warehousing juveniles in jail, however, is not a 
long-term answer. Working with other agencies, we have 
developed the jailed juvenile program. Juveniles in the jail 
attend school in regular classes held in the facility. They 
also receive drug counseling and participate in living skills, 
family planning classes, and anger control training.
    I often say that because of all the publicity we have 
received our school in the jail is the most famous school in 
the world, and the one with the best attendance.
    In an effort to provide these young offenders with positive 
role models, one program pairs them with mentors recruited by 
my office. The mentors visit them on a regular basis in the 
jail and continue to provide guidance for the juveniles after 
they are released from the jail.
    One of the most successful examples of working with our 
schools is our program for at-risk students, which serves 
students throughout Jacksonville who have had serious 
discipline problems but have not yet committed crimes. The 
students attend juvenile delinquency hearings and interact with 
juveniles incarcerated as adults. The juvenile inmates stress 
avoiding criminal activity and staying in school. To date, over 
1,500 at-risk juveniles have participated in the program, and a 
Florida State University study concluded that in a relatively 
short period of time, this program alone may have averted as 
many as 1,500 property crimes.
    These are just a few examples of programs that have been 
developed on the local level that might be worthy of Federal 
support and replication in other jurisdictions throughout the 
United States. We invite you to come to Jacksonville and 
examine firsthand and up close how we are attempting to halt 
the cycle of at-risk children of today becoming the habitual 
adult offenders of tomorrow.
    In summary, the answer is not punishment or prevention. It 
requires both. I incarcerate more juveniles as adults than any 
prosecutor in the country. Equally important, I have more 
prevention/early intervention programs. The answer is 
punishment and prevention/early intervention working together.
    A non-partisan, balanced approach can have an unbelievable 
impact on crime and the welfare of our children.
    I thank the committee for the great interest in the issue 
of criminal justice and, more specifically, juvenile crime in 
America. There is no simple solution to this very complex and 
difficult problem. Every day we are trying new ideas and 
approaches. Some work and others fail. Some children turn their 
lives around while others fall into a life of crime. The one 
certainty is that unless the Nation remains vigilant and 
focused on the problem of juvenile crime, the gains we have 
made will fade as we enter the new century. I feel confident, 
however, through aggressive prosecution combined with intensive 
intervention and prevention, the progress we have made will 
continue into the next century and beyond.
    Mr. Chairman, as you said prior to the hearings, it would 
seem as if we can get together and agree on an appropriate way 
to address this problem, and when we address juvenile justice, 
we are addressing appropriately the entire justice system.
    Thank you very much.
    [The prepared statement of Mr. Shorstein follows:]

                Prepared Statement of Harry L. Shorstein

    Mr. Chairman, Mr. Ranking Member, distinguished Members of the 
Youth Violence Subcommittee of the Senate Judiciary Committee, my name 
is Harry Shorstein and I am the State Attorney for the Fourth Judicial 
Circuit of Florida.
    I would like to thank you for the invitation to speak with you 
today about our nations criminal justice system, and more specifically 
juvenile justice.
    As I speak with you today it appears that once again a debate is 
raging between punishment and prevention as a solution to juvenile 
crime. It is my strong belief that the citizens of our nation deserve 
more than a repeat of old arguments.
    We need a two-pronged approach to the epidemic of juvenile crime, 
we must incarcerate repeat and violent juvenile offenders, help return 
them to an environment different from which they came, and at the same 
time intervene at an early age with children at-risk of becoming 
criminals. With the cooperation, assistance and support of the office 
of justice programs, my office has developed a comprehensive strategy 
to address juvenile crime based on this philosphy, which is working.
    In an article written for the New York Times, Fox Butterfield 
called our program of sanctions and intervention a ``preemptive 
strike'' approach to reducing juvenile crime and, of course, ultimately 
reducing all crime. The term preemptive strike describes vividly what 
we are trying to accomplish by moving decisively to head off problems 
before they occur or worsen. (We would like to make this article a part 
of the record)
    I would like to take just a few minutes of the committees time to 
tell you about Jacksonville's approach to curbing juvenile crime. Since 
1993, there has been a 44 percent reduction in arrests of juveniles for 
violent crime in Jacksonville. This includes a 78 percent reduction in 
murder, 51 percent reduction in rape and other sex offenses, 45 percent 
reduction in robbery and a 40 percent reduction in aggravated assault. 
In addition to these violent crimes there has also been a 67 percent 
reduction in arrests of juveniles for the gateway crime of vehicle 
theft and a 56 percent reduction in weapon crimes.
    The picture in my community was not always so positive. When I took 
office, our city was faced with a twenty-seven per cent increase in the 
number of juveniles arrested from 1990 to 1991 and during the four 
years prior to the implementation of our program, 1989-1993, juvenile 
violent crime arrests had increased 78 percent.
    When the federal government provides support for much needed local 
programing, that improvement can occur much more quickly.
    There is a legitimate and important role for the federal government 
in crime prevention. That role is not through federalization of crime 
but, instead, through financial support of state and local law 
enforcement. That should not be curtailed. A perfect example of the 
appropriate and important role the federal government can play is the 
Office of Juvenile Justice and Delinquency Prevention. This agency 
provides critically needed support for creative locally developed 
solutions to the problem of juvenile crime.
    In Jacksonville we have received substantial support for both 
juvenileand adult criminal justice programing, most of it from the 
office of justice programs.
    Truancy and avoiding out of school suspension are critical to 
juvenile crime prevention. When appropriate, we aggressively prosecute 
parents for not sending their children to school. Children must go to 
school! Studies tell us that serious juvenile offenders begin as 
habitual truants. This is why the effort to keep children in school is 
a key component to my comprehensive plan to reduce juvenile crime.
    To address the increasing juvenile drug abuse problem, I 
implemented a juvenile drug court. Juveniles accepted in the drug court 
are immediately enrolled in a multi-phased out-patient program. 
Juvenile drug court includes an educational component and psychological 
services for the juvenile and parents.
    Truancy prevention and juvenile drug court are two examples of 
programing that has been directly assisted by federal support.
    Our juvenile program, however, is much more than truancy and drug 
court. There must be punishment.
    In the New York Times article, one young man was quoted as saying 
``I thought it was kind of harsh, but the word is out on the streets. 
That's why there are fewer kids in the jail.''
    Simply warehousing juveniles in jail, however, is not a long-term 
answer, working with other agencies, we have developed the ``jailed 
juvenile program''. Juveniles in the jail attend school in regular 
classes held in the facility. They also receive drug counseling and 
participate in living skills, family planning classes and anger control 
training.
    All juveniles in jail now attend school in jail as they would if 
they were in a regular school.
    I often say that because of all the publicity we have received that 
our school in the jail is the most famous school in the world * * * and 
the one with the best attendance.
    In an effort to provide these young offenders with positive role 
models, one program pairs them with mentors recruited by my office. The 
mentors visit them on a regular basis in the jail and continue to 
provide guidance for the juveniles after they are released from jail.
    Many of our prevention/early intervention efforts are school-based. 
A career educator in our office coordinates programs with our schools.
    One of the most successful examples of working with our schools is 
our program for at-risk students. Which serves students throughout 
Jacksonville who have had serious discipline problems. The students 
attend juvenile delinquency hearings and discuss their behavior with 
juvenile judges. We also take them on a tour of the local jail and 
allow them to interact with juveniles incarcerated as adults. The 
juvenile inmates stress avoiding criminal activity and staying in 
school. To date, over 1,500 at-risk juveniles have participated in PAS. 
A Florida state university study concluded that in a relatively short 
period of time, this program alone ``may have averted as many as 1,500 
property crimes.''
    These are just a few examples of programs that have been developed 
on the local level that might be worthy of federal support and 
replication in other jurisdictions throughout the United States. We 
invite you to come to Jacksonville and examine first hand and up close 
how we are attempting to halt the cycle of the at-risk children of 
today becoming the habitual adult offenders of tomorrow.
    In summary, the answer is not punishment or prevention. It requires 
both! I incarcerate more juveniles as adults than any prosecutor in the 
country. Equally important, I have more prevention/early intervention 
programs within my office. The answer is punishment and prevention/
early intervention working together.
    A non-partisan, balanced approach can have an unbelievable impact 
on crime and the welfare of our children.
    I thank the committee for their great interest in the issue of 
criminal justice and more specifically juvenile crime in America. There 
is no simple solution to this very complex and difficult problem. Every 
day we are trying new ideas and approaches. Some work and others fail. 
Some children turn their lives around while others fall into a life of 
crime. The one certainty is that unless the nation remains vigilant and 
focused on the problem of juvenile crime, the gains we have made will 
fade as we enter the new century. I feel confident, however, through 
aggressive prosecution combined with intensive intervention and 
prevention, the progress we have made will continue into the next 
century and beyond.

    Senator Sessions. Yes, the greatest predictor of an adult 
criminal act is someone who has had a prior juvenile crime. 
That is a great statistic. And your program I think is really 
what Judge West has been describing. You have a certain level 
of sanctions certainty. You don't want to put anyone in jail if 
you don't have to or detain them, but when you do, there is 
punishment. There is also education, treatment, and those 
programs that go with it. I think it is a model, and I know a 
lot of other judges around the country and systems are reaching 
that level. And I believe that there is nothing--and I would 
say that I don't believe there is a program you have mentioned 
that would not be eligible for funding from the block grant 
program we have created. It was designed to encourage just 
those kinds of innovative, practical, community-based programs 
that work.
    Chief Wilson, I remember--I think you and I talked about it 
when I was Attorney General a few years ago--there was a murder 
in town, and the paper said three juveniles had been arrested. 
And I called you, and I said, ``Chief, I would like to know 
what the arrest record of those three were.'' I think they were 
15 and 16 years old. The two 16's had five prior arrests, and 
the 15 had 15 prior arrests.
    Is that uncommon?
    Chief Wilson. No, sir, and I am glad you asked me that 
because 2 weeks ago we had a 30-year-old artist at the 
Shakespeare Theatre there in Montgomery who had a sweater 
stuffed down her throat and masking tape wrapped around her 
head in such a fashion it looked like a mummy, and she was 
tortured and killed by an 18-year-old, and he had about 12 
prior arrests, everything from burglary to----
    Senator Sessions. Judge West, that is what I hear you 
saying has been the pattern all over America.
    Judge West. Yes, sir, that is what I have seen both in my 
court and in my travels, and it just seems that by not doing 
anything the first time or two they come into court, we are 
just reinforcing that negative behavior. And when you finally 
do something, they can't believe it.
    Senator Sessions. And I guess what frustrates me, as I have 
tried to bring my experience to bear on this problem--and I 
agree, I think, with all of you here before us as a solution. 
It has been suggested that all you want to do is lock kids up. 
We don't want to lock kids up. But if you don't have the 
capacity to carry out a sanction, doesn't that undermine the 
credibility of the court and the police officer and the 
probation officer?
    Judge Vahle. We believe that juveniles must be held 
accountable, and in our State, for example, we have taken steps 
to coordinate with the police, with the probation officers who 
screen folks coming into the system, get the parents into the 
process as that screening takes place with the probation 
officer and the police officer, get the State's attorney, the 
prosecutor into it, so that those folks, not just one person on 
the battle line but all those folks, are involved in deciding 
whether or not you need more attention to this juvenile's 
behavior than might ordinarily be the case.
    The problems that have been described by Judge West and the 
others on the panel are problems that can be addressed if we 
work at it in a communicative and cooperative spirit, with 
proper assistance and training, which are out there. But if we 
work together on those things, we can address those issues and 
show positive results. And just exactly as Mr. Shorstein 
pointed out, you put things together in a way that is workable 
and makes sense, and we can do the job. We just need the tools 
to get the job rolling.
    Senator Sessions. I am convinced of it. Your record of 
reduced crime--we just had Monday in this hearing, we had a 
hearing on the gun prosecutions, Project Exile in Richmond and 
other efforts that I think this administration has allowed gun 
prosecutions to fall by 50 percent since they took office. But 
Project Exile, run by the Department of Justice in Richmond, is 
very workable. We had the U.S. Attorney from Boston, both of 
which have achieved substantial reduction in crime. The Boston 
project particularly focuses on young people. Are you familiar 
withthat, Judge West? Or, Harry, are you familiar with that? 
They have intensive probation and supervision. They have police 
officers, Chief, that work with the probation officers because a 
probation officer is really not equipped to go to some of these homes 
at 9 o'clock at night to see if they are obeying the curfew. So the 
police and probation go out together at night, knock on the door, talk 
to the family, verify the child is at home and not in trouble. And it 
is the key, they tell me, in Boston.
    The U.S. Attorney in Boston, who very much wants to help 
young people avoid crime, says, just as you, that you have got 
to have that sanction if they don't obey. If they refuse to 
obey the probation and conditions and you don't have any 
capacity to punish or sanction, then you lose credibility. 
Would any of you disagree with that?
    Chief Wilson. No. I am familiar with that project. They 
have paid us a visit in Montgomery, and the key to the success 
to it, I am convinced, is the follow-up aspect and the punitive 
action that is taken if they don't live up to the probation.
    Senator Sessions. Judge Vahle.
    Judge Vahle. That is part of what working smarter is about. 
We get a schedule of risk factors that the probation officer 
and the police consider when they first come in contact with 
this juvenile. We take the research that we get from OJJDP 
about tendencies and what types of risk factors can result in 
what types of problems, and we take a look at that. Then we get 
tracking through appropriate technology to keep track of a 
given child as that child presents himself to the system so 
that we don't have three, four, eight contacts with the system 
before there is accountability.
    We combine all these assets, and that is how we work 
smarter. We can't just sit back and wait for things to come in. 
All of these folks are perfect examples of working smarter by 
taking what we have learned and the technology and the 
inclination to get out from behind the desk and go out in the 
community and work toward prevention and work toward dealing 
with offenses as they occur and in an effective way.
    Senator Sessions. Judge West.
    Judge West. Senator Sessions, I was just going to say that 
the juveniles know the way the system works, and they know 
whether or not you can enforce what you tell them. The way it 
used to be, I hated to tell kids what was going to happen 
because I would have to tell them, if I was going to be 
truthful, completely truthful, that they could commit several 
crimes before anything of a tangible consequence or a tangible 
nature happened. And now they are starting to understand that 
their crimes are being taken more seriously, and they know the 
system better than a lot of the attorneys who come in. They 
know what is going to happen to them.
    Senator Sessions. But Virginia has had to increase its 
detention capacity, has it not?
    Judge West. We have been increasing detention capacity. 
When someone breaks a court order, they need to know that the 
consequence can be incarceration. And I can tell you that some 
judges may not incarcerate because of overcrowding. If I told 
someone that they are going to be incarcerated if they break an 
order, I am going to do it whether it is overcrowded or not, 
and we are better off to have facilities that can hold the 
juveniles as opposed to putting them in an overcrowded 
facility. We have to have that ability.
    Senator Sessions. Well, that is what we have got to 
understand. I am not against the traditional prevention 
programs such as after-school programs or other kinds of 
things, Boys and Girls Clubs. By the way, this abolition of the 
grant apparently abolishes $40 million for the Boys and Girls 
Clubs.
    But I am not against that. It seems to me that that is an 
area probably for the education system, the Department of 
Health and Human Services. But if we are dealing in Judiciary 
with the justice criminal bill, then it ought to focus on the 
justice system and what we can do there. So Iam just saying 
with regard to prevention, I think that is where we have to focus.
    And if you are going to have a credible system, you need a 
certain amount of capacity to incarcerate. You say you 
incarcerate probably higher than any system in the country? I 
know you don't like to. I know it is painful to think of 
putting someone in jail. But I guess you do it because you care 
enough about them to not let them get away with the crime. Is 
that your philosophy?
    Mr. Shorstein. Well, we have found--and Judge West pointed 
it out--that the juveniles know the system. They are not going 
to listen to our lectures. When we bring these school kids in 
every Friday who we feel are at risk, I quit talking to them 
because they used to see an old man in a suit giving them a 
lecture. They had heard it from judges, well-intentioned judges 
who did not have the resources with which to follow through.
    When we bring these jailed juveniles who have been 
prosecuted as adults over at the end of the day in cuffs and 
chains, as, of course, they have to come, and they have a rap 
session, you could hear a pin drop. ``60 Minutes'' picked it up 
because television can do it much better than we can. And you 
saw one of these kids riveted on this jailed juvenile who was 
saying to the kid, ``I thought I would get away with it, too, 
but I am serving a year in the county jail.''
    That punishment component makes the prevention/early 
intervention components work. I am just totally convinced that 
early intervention works, that early intervention is the 
answer. But if the juveniles do not know that there is a 
punishment component and a meaningful punishment component, 
then the prevention/early intervention won't work. And that is 
essentially what our whole program is based upon.
    Senator Sessions. But all of you agree that that is an 
essential philosophy of an effective court system?
    Chief Wilson. Yes, in my opinion, though I think we are 
being way too reactionary too late. I think that we have got to 
do a better job of the early intervention aspect of it in a 
much----
    Judge Vahle. I firmly believe that we have to be able to 
offer a continuum of available outcomes for the appropriate 
offender. There are offenders, I am here to tell you, no matter 
how long they think they are going to be in jail, they don't 
care. And they will offend, anyway, and those folks we have to 
deal with one way. There are other kids, with a little bit of 
good supervision and encouragement, they are going to do fine.
    There is no answer for all types of offenders, but having 
the continuum of available services, available outcomes, is 
what is so important.
    Senator Sessions. What are some of the things that you want 
in your continuum? What as a judge are the kind of options for 
dealing to properly intervene? A child has been arrested for a 
burglary, say they have a drug history or test positive for 
drugs, and you want to effectively intervene with a 14-year-
old. What kind of things would you like to have as a judge that 
you could draw upon for the various types of kids that are 
arrested like that?
    Judge Vahle. I want good protocols for screening the 
various problems this kid may have--drugs, violence in the 
home, how well he does in school, his attitude towards his 
parents, how he gets along at home and with the family, what 
type of family he has. I want to know a lot about this kid just 
to----
    Senator Sessions. That would be the role of a well-trained 
and effective probation system?
    Judge Vahle. Exactly. From there, I want to have 
appropriate services to meet his needs. If he has got an 
alcoholic father--in our State we can deal with the parents. If 
he has got an alcoholic father, I can get that father into 
treatment. If he has got a father who has got adomestic 
violence problem, I can direct him to attend a program. I can eject him 
from the home until he does.
    In other words, we deal with the family unit, not just the 
kid, because that is what happens. The parents come into court 
and say here is our kid, fix him. Well, that kid has developed 
over a period of years within that home, and I am guessing that 
a good part of the time there is something that has happened in 
that environment that is going to affect this kid as he stands 
here today. So we are going to look at the whole family.
    I want good substance abuse treatment. We have got pretty 
good treatment in Illinois, both at the local level and 
residential services as may be necessary. We want to create 
juvenile family violence treatment programs. Adolescents have a 
completely different set of hormones and attitudes than adults, 
and they don't respond well to adult programs, and there is no 
really good adolescent program that we have run across. I want 
that in my continuum of services.
    Then I want to step up on the accountability, and if those 
outpatient type services don't work well, then I want a 
treatment program which may include appearing for some part of 
the day, after school, for example, on weekends, to use their 
time, put them to work so they are not out on the street 
thinking of things to do.
    Then I want secure treatment, and that may be anything from 
an ankle monitor where they have to come in every day to secure 
treatment at the youth home where, as Mr. Shorstein pointed 
out, we have education, counseling, mental health components 
available to deal with these kids here.
    If we send a kid to the Department of Corrections, we take 
that as a failure, and I will tell you why. Because when they 
go to the Department of Corrections, they are going to be there 
6 months, a year and a half, whatever. They have got a 
graduated scale, depending on the type of offense, in our 
State. After that many number of months, unless they are just 
going completely wild in the department, they are coming back 
home. And you know what? They come back to their home 
community. And so if we don't deal with them effectively, we 
can ship them off and we can save victims for that 6 months or 
year and a half, but they are coming back. And if we don't deal 
with them, there are going to be more victims, and that is the 
big picture.
    Senator Sessions. Well, you say in your statement that you 
determine you needed a detention facility there in your county, 
and you matched--you came up with $2.5 million locally and 
added $1.5 million from the grant program and were able to 
build the kind of first-class facility I guess you felt like 
would meet those needs to help you complete this continuum of 
options.
    Judge Vahle. We see that continuum----
    Senator Sessions. If somebody already has a detention 
facility, maybe they need to use the money more on this 
intervention type program. Is that right?
    Judge Vahle. That would be----
    Senator Sessions. I mean, it is just----
    Judge Vahle. Exactly. Exactly.
    Senator Sessions. Judge West, did you want to comment on 
that?
    Judge West. There are just all kinds of options out there 
and things that we could use--group homes, halfway houses, 
independent living. Really, one of the major problems that we 
see, especially with kids coming back from the correctional 
centers, is no matter how much of an impact the correctional 
center may have had on their behavior--and I think we have a 
good State juvenile correctional system--they are coming back 
to the same family and the same neighborhood. So I always 
wanted to see more halfway houses or more independent living 
programs so that the kids could go somewhere and start over in 
a different area, not surrounded by the same friends that they 
left who are still continuing to get in trouble. That is just 
one more component in the continuum.
    I just wanted to say on the prevention and punishment 
aspect, people try to portray those as either/or. They arenot 
mutually exclusive, and they do complement each other, and both are a 
necessity. And I think that trying to place one against the other, as 
some folks do, is really wrong and I think hurts the system.
    Senator Sessions. I tend to agree, and I also believe that 
we took this $4.5 billion, talking about it, as we did, about 
the Office of Justice Programs consolidating some of these, and 
really took that money and effectively developed a good 
prevention program prior to arrest for kids who haven't yet 
been in the criminal justice system. Then you could probably 
get some good with it. But when you have got 129 programs, 
spending $4 billion a year, we don't seem to have enough 
effectiveness there.
    But I would point out this--and this is the unfortunate 
reality, and I learned it when I was running for Attorney 
General in Alabama. Alabama for 25 years had not increased its 
detention bed spaces for juveniles. During that time, not only 
did we have an increase in number of juveniles, which would 
indicate you would need to increase capacity, we had this huge 
surge in violent, serious crime. And if you have got four times 
as many assaults with intent to murder and five times as many 
armed robberies by juveniles as you had 20 years ago, it stands 
to reason to me that prison, that detention capacity has got to 
increase some. And that is not--and to say that--at any rate, 
would you all agree with me? We are just at a point based on 
what has happened in our country to break down a family, that 
we have got more serious repeat young people than we did 25 
years ago.
    Chief Wilson. We do, and you know we are paying for it now, 
too, because our juvenile court system in Alabama is under 
Federal court sanction.
    Senator Sessions. That is right.
    Harry.
    Mr. Shorstein. Florida had the exact same experience, Mr. 
Chairman, spending almost no money on juvenile justice during 
the preceding decade and a half. Frankly, the program we have, 
we developed totally independently of the State with some help 
from Office of Justice Programs and with local support. What we 
found politically, we were able to get the support because our 
program has been so effective that people are willing to help 
us. We have gotten tremendous assistance from the Federal 
Government and from the local government.
    But I would like to comment on one thing Chief Wilson said 
because, in a way, he may have hit the nail on the head. And I 
think he really said what the Attorney General Janet Reno has 
said over and over again. The most important years in fighting 
crime are 0 to 3, you know, dealing with stopping children born 
in poverty, single-parent families, teenage pregnancy. You 
know, just as you pointed out, appropriately, we can spot the 
adult offenders from their juvenile records; we can spot the 
juvenile offenders from their birth. If a 13-year-old inner-
city female living in poverty has a child, we will see that 
child in the criminal justice system, and it happens every 
time. So in a way, the chief may have made the most appropriate 
remark of all of us when he made that.
    Chief Wilson. That was my point exactly, Senator, and when 
you meet with the rest of your committee members, challenge 
them with one thing when you are forming these laws. Ask them 
to define a parent. Ask them what that is.
    Senator Sessions. Well, we have had an extraordinary 
breakdown in family. I was with Senator Patrick Moynihan last 
year in the subway, and somebody raised the subject. He has 
written on it academically, and he said in the history of the 
world, no nation has ever seen the collapse of the family as 
this Nation is now undergoing. And when you have 80 percent of 
the children in the inner city born out of wedlock, then we 
have got a social problem of extraordinary proportions.
    How do you deal with that? We don't know, effectively, but 
truancy is a good tip-off, isn't it? Does everybody agree with 
that? If a child--at the earliest possible indication of 
truancy, a quick response is helpful?
    Judge Vahle. Mr. Chairman, I have two examples of whatyou 
are talking about and what the chief is talking about.
    Senator Sessions. Please.
    Judge Vahle. A study that was reported to me sometime back 
a few years ago was that of all the possible common 
denominators in the development of violent offenders who were 
in prison for violent offenses that researchers could find, 
everything from poor mental health to alcoholism, to substance 
abuse, to family violence--you name it--the only thing they 
could find in common among all these people was that they were 
poor readers in the early grades. It indicates that there is a 
problem at home; there is a problem with the kid's development. 
It is an indicator. It doesn't mean all poor readers are 
convicts, but it does show that there is an important 
correlation with development at an early age.
    The second thing was that of the young people, the 
juveniles on death row--not juveniles--adult criminals on death 
row in this country that were surveyed, nearly 100 percent of 
them came from single teenage mothers. We have to give support 
to single teenage mothers and all single parents. It is not a 
moral issue. It is a social issue. And the effects are out 
there. We can't ignore it or we will continue to reap the 
benefit--or lack of benefit from ignoring it.
    Senator Sessions. When it ceased being a moral issue, it 
did become a social issue of monumental proportions because 
traditionally we used commitment to moral values to maintain 
integrity of family, and that is--I don't think you meant to 
suggest otherwise.
    Judge Vahle. No, I did not. I certainly did not. I am a 
very strong believer in providing an appropriate foundation for 
children, and that means two parents in the home. We are faced 
with a fact of life that people create children out of wedlock, 
and we have to deal with that. We have to also try to convince 
folks it is not a good idea, I suspect, but we need to deal 
with the problem.
    Senator Sessions. I know a judge that served on your board, 
and he says that his observation is the most--I guess the ones 
you said, the ones who are most violent and most indifferent to 
punishment, his personal anecdotal experience came from very 
young mothers, 15-, 16-year-old mothers, not 17-, 18-, 19-year-
old mothers, but 
15-, 16-, 14-year-old mothers even. And he told a number of 
stories about that, and he did not--he said, ``I am not sure 
whether that is something that needs to be researched or not.'' 
Maybe we ought to, or whether or not there is something 
particularly true there. Maybe there is not--a 14-year-old, 15-
year-old mother doesn't have the ability to bond with a child 
like an older mother might.
    Judge Vahle. It depends so much on the support that mother 
gets. Children having children is a big problem. They don't 
have the judgment, they don't have the maturity, the 
initiative, the discipline to provide the stable platform for 
development that a child needs. And single parents alone don't 
have that assistance from the other parent, and that assistance 
and presence is so vital for children's proper development. It 
is certainly something that is worth looking into more.
    Senator Sessions. Well, I would just conclude. Does anyone 
have anything that they feel is important to say?
    [No response.]
    Senator Sessions. We will keep our hearing record open 
until April 2nd, and if we have any questions or if you would 
like to submit any statements, we will receive them by then.
    I would just say this: Every complex social problem in 
juvenile crime which we have been talking most about--although 
that is really not the primary focus of this hearing because a 
lot of the programs under OJP are for adult crime. The one 
thing I think we all have agreed, as you sit here today before 
me--and I certainly agree--is that we need a juvenile justice 
system that can effectively deal with the young offender when 
he is first apprehended and there is a series of sanctions 
possible and available to a judge or a prosecutor or the police 
that would help maximize the possibility that this child would 
not continue in a life of crime.
    So, to me--and I just want to say it to you--that is the 
purpose of the juvenile justice bill that we have introduced 
and the point of the grant program that we have introduced.
    Now, when we talk about birth, early development, the 
educational system, I think we need to continue to deal with 
that and perhaps need to go back and review everything we are 
already spending on that and consider other programs that may 
work. If we can just get this piece of legislation done and get 
you a little more money so that you can improve your systems, I 
think we can say that is at least one good thing we will have 
accomplished.
    Thank you so much. I have enjoyed this very much. You have 
been very insightful and wise, and I hope that we can take to 
heart what you have told us. Thank you very much.
    We are adjourned.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]

                                    

</pre></body></html>
